<html>
<title> - DRUG PRODUCTION ON PUBLIC LANDS--A GROWING PROBLEM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





           DRUG PRODUCTION ON PUBLIC LANDS--A GROWING PROBLEM

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                and the

                 SUBCOMMITTEE ON ENERGY POLICY, NATURAL
                    RESOURCES AND REGULATORY AFFAIRS

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCOTBER 10, 2003

                               __________

                           Serial No. 108-138

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

93-426              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
          Nick Coleman, Professional Staff Member and Counsel
                         Nicole Garrett, Clerk
Subcommittee on Energy Policy, Natural Resources and Regulatory Affairs

                     DOUG OSE, California, Chairman
WILLIAM J. JANKLOW, South Dakota     JOHN F. TIERNEY, Massachusetts
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
CHRIS CANNON, Utah                   DENNIS J. KUCINICH, Ohio
JOHN SULLIVAN, Oklahoma              CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 JIM COOPER, Tennessee
CANDICE S. MILLER, Michigan

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Dan Skopec, Staff Director
                Melanie Tory, Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 10, 2003.................................     1
Statement of:
    Martin, Richard, superintendent, Sequoia and Kings Canyon 
      National Parks; Art Gaffrey, forest supervisor, Sequoia 
      National Forest; and Stephen C. Delgado, Special Agent in 
      Charge, Drug Enforcement Administration....................    13
    Mulz, Lisa, superintendent, Department of Parks and 
      Recreation; Val Jimenez, commander, CAMP; Sheriff Wittman, 
      sheriff, county of Tulare; and Joe Fontaine, president, 
      Wilderness Watch...........................................    63
Letters, statements, etc., submitted for the record by:
    Delgado, Stephen C., Special Agent in Charge, Drug 
      Enforcement Administration, prepared statement of..........    37
    Fontaine, Joe, president, Wilderness Watch, prepared 
      statement of...............................................    82
    Gaffrey, Art, forest supervisor, Sequoia National Forest, 
      prepared statement of......................................    27
    Jimenez, Val, commander, CAMP, prepared statement of.........    71
    Martin, Richard, superintendent, Sequoia and Kings Canyon 
      National Parks, prepared statement of......................    16
    Mulz, Lisa, superintendent, Department of Parks and 
      Recreation, prepared statement of..........................    66
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................     5
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................    10

 
           DRUG PRODUCTION ON PUBLIC LANDS--A GROWING PROBLEM

                              ----------                              


                        FRIDAY, OCTOBER 10, 2003

        House of Representatives, Subcommittee on Criminal 
            Justice, Drug Policy and Human Resources, joint 
            with the Subcommittee on Energy Policy, Natural 
            Resources and Regulatory Affairs, Committee on 
            Government Reform,
                                         Sequoia National Park, CA.
    The subcommittees met, pursuant to notice, at 10 a.m., at 
the Wuksachi Village Lodge, 64740 Wuksachi Way, Sequoia 
National Park, CA, Hon. Mark Souder (chairman of the 
Subcommittee on Criminal Justice, Drug Policy and Human 
Resources) presiding.
    Present: Representatives Souder, Ose, and Nunes.
    Staff present: Dan Skopec, staff director; and Melanie 
Tory, professional staff member, Subcommittee on Energy Policy, 
Natural Resources and Regulatory Affairs; Nick Coleman, 
professional staff and counsel; Alena Guagenti, legislative 
assistant; and Nicole Garrett, clerk, Subcommittee on Criminal 
Justice, Drug Policy and Human Resources.
    Mr. Souder. With that, the committee will now come to 
order.
    I'd first like to introduce our host, Congressman Devin 
Nunes. When I first visited Sequoia, he was running in a 
primary, which he emerged with a big victory, and has been a 
wonderful addition to Congress to the Resources Committee, on 
which we both serve, and in other ways in Congress is one of 
the bright rising stars of Congress. It's great to be in your 
area today. And, thank you for coming today.
    Mr. Nunes. Well, thank you, Mr. Chairman.
    It's also a pleasure to welcome my good friend Doug Ose 
from Sacramento, who has always been a good friend of mine and 
a good friend of law enforcement.
    I want to second welcome all of the speakers that are going 
to be here today and all of those of you that are here to 
witness this hearing today. It's really a pleasure and an honor 
for me to have all of you here to draw more public awareness to 
this ever increasing problem. As most of you know, in addition 
to the marijuana issues that we'll talk about today, we also 
have a huge methamphetamine problem that we face in the San 
Joaquin Valley.
    So it's a pleasure for me to welcome you here and also look 
forward to hearing your testimony.
    Thank you very much, Mr. Chairman.
    Mr. Souder. Thank you.
    This is a joint hearing with two chairmen, and so we'll be 
trying to work out our process today. The subcommittee that I 
chair is Criminal Justice, Drug Policy and Human Resources 
which, among other things, has all of the drug policy questions 
regardless of where it falls in the Federal Government, in 
which Congressman Ose has been one of the most active members 
from the time he got elected to Congress. We all went up to his 
district on a meth hearing soon after he was elected, and I was 
vice chairman of this subcommittee. But he chairs the 
Subcommittee on Energy Policy, Natural Resources and Regulatory 
Affairs with oversight over public lands and government 
regulatory policies, so this is a joint hearing we were both 
chairing today. And, I would like to now yield to him as an 
active member of my subcommittee but also chairman of the other 
subcommittee that's doing this today.
    Mr. Ose. Thank you, Mr. Chairman.
    Devin, it is a pleasure to be here in your part of the 
State. We appreciate you being the host.
    I want to welcome everybody. You all probably get a greater 
opportunity to come to Sequoia than I do, but, my goodness, 
it's great to be here.
    We are here today to examine the increase in illegal drug 
production in our national parks and forests. As Congressman 
Souder explained, he has a policy jurisdiction over U.S. drug 
policy.
    Mr. Ose. On my subcommittee I have all of the public lands, 
Bureau of Land Management, Forest Service, Park Service, all of 
that other stuff, and that's the reason we're having a joint 
hearing.
    Over a century ago, the National Park Service and the 
Forest Service were created to protect our Nation's pristine 
and historic lands for the enjoyment of Americans today and for 
the enjoyment of the generations yet to come. We are here today 
because the very mission of both of those agencies is 
threatened by illegal drug cultivation that's taking place on 
those public lands. Lands that once were the epitome of natural 
beauty have become large scale marijuana farms and toxic waste 
sites. Terraced hillsides and cannabis plants have replaced 
lush trees and foliage. Plastic irrigation tubing has overrun 
bubbling brooks and streams. And, human waste and litter have 
covered the organic forest floor. However, this is only part of 
the problem. We have visitors, naturalists, and rangers who 
were once able to roam the lands freely who are now in grave 
danger of being injured or killed by marijuana growers armed 
with AK-47s, handguns, and machetes.
    For years, as many of you know, relatively small illegal 
drug operations have existed on our national lands. 
Interestingly, one of the outgrowths of September 11th is that 
when our border security tightened, drug smugglers reacted by 
moving drug production from Mexico into the United States, and 
essentially what were once small marijuana gardens planted by 
local residents have become large-scale marijuana, in some 
cases methamphetamine, operations run by well-funded and well-
armed Mexican drug cartels. They have found it easier and more 
economical to produce their drugs here in America on public 
land rather than smuggling it across tightened borders.
    The fact that this hearing is being held in California, and 
specifically here in Sequoia, is no accident. California's 
climate which we all enjoy, our natural resources which we seek 
to protect, and our proximity to Mexico which we relish, make 
it a perfect place for Mexican nationals to cross the border 
and to cultivate marijuana.
    According to USDA's--that's the Department of Agriculture--
Forest Service, in 2002 national forests in California 
accounted for over 420,000 of the almost 600,000 marijuana 
plants eradicated nationwide. Think about that. 420,000 of 
600,000 that were found and eradicated were found in our 
national forests in California. 50,000 of those plants were 
eradicated right in this area, in Sequoia National Forest. 
Similarly, in 2002 the Department of Interior's National Park 
Service eradicated over 46,000 marijuana plants from its lands. 
Over 34,000 of those plants were found right here in Sequoia 
and Kings Canyon National Parks.
    Currently we're in the midst of marijuana harvest season. 
That generally spans from April to October. Interagency task 
force, comprised of Federal, State, and local agencies, have 
already begun to locate and eradicate several massive gardens 
on public lands. Coincidentally the first week of September, 
almost 14,000 marijuana plants were found in Sequoia National 
Park. Less than a week later, authorities found another 5,000 
plants and a garden that had been recently harvested. Together 
the eradicated plants were valued at about $74 million. We're 
talking a lot of money here. $74 million.
    Given the value of the crop, it's no surprise that we find 
that these people aggressively guard their camps. Similarly, 
it's no surprise that the growers have little concern for the 
environmental damage they cause. Motivated by profit or fear of 
the people they work for, growers backpack deep into our public 
lands and set up camp on some of our most pristine and valued 
lands. Eradication teams perform some remediation when these 
camps are found, but substantial damage often remains at 
discovered and undiscovered sites due to our inability to 
provide adequate funding and resources. In many cases, it will 
be decades before these lands are restored to their original 
condition.
    In addition to this destruction, drug production on public 
lands increases the risk of forest fires. When these people are 
out in their camps cooking, smoking, and poaching in the 
vegetation, the increase of potential for forest fires is 
rather significant.
    Likewise, meth labs impose an inherent fire risk because of 
the presence of volatile chemicals and the potential for 
explosions. In Mendocino County, in 2001, two firefighters were 
killed when a meth lab exploded in the forest there.
    Now, despite the extended drug production problem, law 
enforcement units within Federal land management agencies 
remain ill-equipped to handle this issue. Due to their 
inadequate resources, law enforcement units in the Forest 
Service and the National Park Service must rely on personnel 
and equipment from other units in these agencies and on other 
Federal, State, and local entities for assistance. While this 
type of collaboration has been successful when brought to bear, 
it's very complicated and has strained already understaffed 
agencies.
    Our hearing today will examine the extent of illegal drug 
production on public lands, and it will seek to determine what 
tools are needed to combat this problem. Key questions are 
whether current Federal and State budget and law enforcement 
allocations are adequate to address the issue, whether the 
priorities of the agencies adequately address or hamper 
eradication efforts, and what congressional assistance, if any, 
is needed to address the growing problems.
    I look forward to the testimony of our witnesses on both 
panels.
    Mr. Chairman, I'll yield it back to your chairmanship.
    [The prepared statement of Hon. Doug Ose follows:]

    [GRAPHIC] [TIFF OMITTED] T3426.001
    
    [GRAPHIC] [TIFF OMITTED] T3426.002
    
    Mr. Souder. Thank you very much.
    This Criminal Justice Subcommittee has been looking at the 
problems of illegal drug trade and how it's impacted public 
lands for some time. In the summer of 2001, we began making a 
comprehensive study of our nationwide borders. During that 
study we had the opportunity to hear from Interior Department 
personnel on the border, including at Big Bend National Park 
which is--I think they might now be the second most dangerous 
national park--and Organ Pipe Cactus National Monument--which 
was ranked the first, one in Arizona and one in Texas--about 
the dangers and resource damage created by the Mexican cartels 
smuggling drugs through our public lands.
    We have also met with customs personnel in Washington State 
who took us to the edge of the Cascades, North Cascades 
National Park, with the huge smuggling operations coming 
through Canada through there and the various ways they approach 
it. We've heard similar things on the northeast border, in the 
Midwest, and in other places as well.
    We did a 2-year border report. And, in that border report 
is probably where we learned much about the smuggling problem 
that today we're here in Sequoia National Park to discuss 
another scourge of drugs that we can--are wreaking our 
country's lands. Here, as well as other parks, forests, and 
public lands, criminals are abusing the people's property not 
as routes over which to transport their drugs but as the very 
resources with which they produce these drugs.
    This has been going on for decades. Years ago when I was a 
staffer, we first dealt with some of this in the national 
forests. Even in Indiana, in the Hoosier National Forest, it's 
a huge problem. Wherever there are public lands close to where 
there are lots of people, those public lands are exploited as a 
place to hide out, as large-scale marijuana operations, meth 
labs, and others have taken route in these remote less visited 
areas on our public lands where criminals hope they can evade 
law enforcement officials responsible for extensive stretches 
of land.
    Marijuana and the cultivation, in particular, has expanded 
exponentially as organized drug trafficking cartels, largely 
made up of Mexican nationals, have created major marijuana 
farms in our parks, forests, and other public lands. These 
gardens are really very large plantations including thousands 
of marijuana plants. Covert workers on these complexes have 
established campsites, living there while they nurse marijuana 
plants with chemical fertilizers and water diverted from 
natural sources, often producing marijuana plants with very 
high THC content. For those who aren't familiar with that--and 
most of you here probably are--this is a new phenomena which 
we're trying to educate both the United States and Mexico and 
Canada and other efforts through this committee.
    For example, the range that I understand we're going to 
hear is 10 to 18. In New York City just 2 weeks ago, we heard 
18 to 40 percent. In my hometown in Indiana, high grade 
marijuana is selling for as much as cocaine and heroin. In 
Boston it sells for more. In New York it sells for about half 
of cocaine and heroin because they have a more abundant supply.
    This is really potent stuff. This weed is not the type of 
marijuana we've learned about before. I've been in Vancouver 
three times in the last 2 years, meeting with the Canadians 
there because they're exporting their seeds and plants and 
they're selling them over the Internet. And, if these growers 
that we're seeing here in Sequoia and in our national forest 
get the--even more high potent breed then as they're trying to 
do in this park, we're in for a deep, deep problem. States that 
have, in my opinion, weaker marijuana laws are asking for deep 
trouble. And, they're now supplying the rest of the United 
States, as we've heard from Congressman Ose, not only meth but 
this high grade marijuana in California is becoming a variation 
of an American Columbia. And, unless we get control of it, it 
is a big, big problem.
    Here in Sequoia Park it's exploded in the last few years. 
The park has eradicated over 700 marijuana plants in 2000. It 
eradicated 34,000 plants last year.
    The problem extends beyond marijuana; however, meth 
producers are more and more often taking advantage of our 
public lands to make their drugs. And, this June a hiker in the 
Sierra National Forest stumbled upon a crop of opium poppies, 
which is the--to make the production of heroin, apparently 
grown by members of an Asian criminal organization.
    This is a new variation. Congress is spending $1 billion to 
eliminate cocoa in heroin in Columbia. And, if we find a 
domestic way to produce this, you're basically looking at 
places where it's 4,000, 8,000 feet where there's water and 
where you're barely secluded. It's the same problem we have in 
the Andean region. If we do a better job in eradicating the 
Andean region, we don't want California in the western 
mountains to become the new opium and cocaine producing areas 
either. So we need to look at these kind of early warning signs 
that we're seeing expanding in places like Sequoia and the 
areas around this as a warning sign for the United States.
    I want to touch on one other point in my testimony, and 
that is that as we've heard, this also damages the parks and 
resources. I've been to Columbia, I believe, somewhere between 
10 and 12 times in the last 7 years in working with this 
committee and in chairing this subcommittee. And, what you see 
in Columbia, Peru, and Bolivia is the Amazon nation being 
destroyed through cocaine labs and other things. You can see it 
from the air, the chemicals pouring into the rivers. You can 
see them chopping down the rain forest to get into the more 
remote areas. But what they do is they leave these mounds of 
waste that go into the river systems, the very water systems 
upon which California depends. And, the underground water 
systems, it will go in--they'll destroy the trees in the 
process often of cutting things out so they can find a 
protective cover and a wider area to grow depending on how much 
sun that particular crop needs. It requires intensive labor. 
You've heard about the miles of irrigation hose. We talk about 
a pipeline in Alaska that we make places to move through for 
animals. We talk about how we do sewers for the concessionaires 
in the national parks and what that does. What about all of 
these miles of irrigation ditches that go into these wilderness 
areas--provide for drug labs.
    Which illustrates another reason I'm very interested in 
this. I serve on the National Parks Subcommittee. I also serve 
on Homeland Security Committee. And, in this area, this isn't 
just about the resources and about the dangers to the rangers 
who move in and stumble on this, this is also about visitation. 
In Organ Pipe we've had to close the third most popular trail 
in Arizona because it's not safe for anybody to go into that 
national monument. They've closed down other areas. The litter 
that you see through many of these parks that are left behind 
by people going through, the damage that's done, it's not safe 
for visitors. It's not safe for rangers, it's certainly not 
safe for visitors.
    The natural resource damage and--this is very important--
the diversion of resources of park, forest, and other personnel 
at a time when our budgets are flat, I have been the cosponsor, 
the Republican sponsor in the last 2 years in efforts to put 
more money into the parks. The fact is that we've been adding 
more things in the parks, and the money, while we're increasing 
parks at a faster rate than almost any other category, has not 
increased as much as we've added the new lands.
    To the degree we have to put more rangers in to protect our 
national monuments from terrorists, the degree we have to put 
them in for narcotics, it means that those rangers and what 
we've been doing is diverting interpretative rangers, we've 
been diverting resource rangers, resource protection rangers, 
we've been diverting resources that would go for scientific 
experiment. We're trying to figure out how we're going to 
manage these difficult questions with wolves and bears and all 
of the different things in the adjacent areas, how we manage a 
forest fire, is going to go into fighting drug traffickers 
fighting to protect the Washington Monument, the Independence 
Hall for terrorists. We have to figure out how we can get a 
hold of this and work together to solve these problems.
    And, this is an important hearing today where we're going 
to hear from the area really that is right at the forefront of 
this national battle. And, that's why we do field hearings, 
because we can get a sample of this in Washington, but we learn 
more when we come to places represented by Members here who 
raise these questions, but it's also for us as a committee to 
get it on the hearing record as part of our national process.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T3426.003
    
    [GRAPHIC] [TIFF OMITTED] T3426.004
    
    [GRAPHIC] [TIFF OMITTED] T3426.005
    
    Mr. Souder. With that, I would like to go through some 
committee procedures before we start our hearing. First, I ask 
unanimous consent that all Members have 5 legislative days to 
submit written statements and questions for the hearing record, 
and that any answers to written questions provided by the 
witnesses also be included in the record. Without objection, so 
ordered.
    Second I ask unanimous consent that all Members present be 
permitted to participate in the hearing. Without objection, so 
ordered.
    If the first panel could come forward, which is Mr. Richard 
Martin, Superintendent here at Sequoia National Park and Kings 
Canyon National Park, who represents the National Park Service 
(DOI); Mr. Arthur Gaffrey, Forest Supervisor at the Sequoia 
National Forest, representing the Forest Service (USDA); and 
Mr. Stephen Delgado, Special Agent in Charge, San Francisco 
Field Division, Drug Enforcement Administration [DEA].
    Will you each rise and raise your right hands. This 
committee historically requires that you testify under oath. 
You're now part of this great tradition. This is the committee 
that's done the Waco hearings, the China hearing, the 
Whitewater hearings, and so on. And so, whenever you testify 
you're expected to do that, but here we've actually had cases 
where we initiate this procedure, and it's always important to 
explain that to this depth.
    So if you'll raise your right hands and repeat after me, 
please.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    And we'll start with our host, Mr. Richard Martin, 
Superintendent of Sequoia and Kings Canyon.

STATEMENTS OF RICHARD MARTIN, SUPERINTENDENT, SEQUOIA AND KINGS 
CANYON NATIONAL PARKS; ART GAFFREY, FOREST SUPERVISOR, SEQUOIA 
   NATIONAL FOREST; AND STEPHEN C. DELGADO, SPECIAL AGENT IN 
            CHARGE, DRUG ENFORCEMENT ADMINISTRATION

    Mr. Souder. I should explain the light system. Generally 
speaking, we do 5 minutes of testimony. Your full statement 
will be submitted in the record, that way we can draw the 
things out and the questions. Since we don't have a warning 
light, when the red comes on try to wind up if you're not----
    Mr. Martin. OK. Thank you.
    I will try to abbreviate the written statement which has 
been submitted for the record, and I believe everybody has it, 
or if they don't have it it's available in the back.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to present the efforts being made by the National 
Park Service to protect visitors and resources in national 
parks from what we see is increasing numbers of illegal, 
cultivated marijuana crops in park lands and public lands in 
California.
    We are always concerned, of course, of the discovery of 
drug activity in national parks. Our mission of the National 
Park Service and our practices and policies are dedicated to 
preserving cultural and natural resources while providing a 
safe, clean, and secure environment for visitors and work 
force.
    Illegal activity, especially one that fosters a component 
of violence, as this does, threatens the mission of the 
National Park Service and the haven of peace and serenity that 
our public seeks when they visit parks. Here in California 
three of our park areas currently, Sequoia National Park where 
we are, Point Reyes National Seashore north of San Francisco, 
and Whiskeytown National Recreation area in the upper 
Sacramento Valley, experience illegal activities that threaten 
our employees, visitors, and natural resources.
    I'm going to skip a few parts of the written testimony 
here, in the interest of time.
    Two years ago, investigations revealed here locally that 
Mexican cartels were finding gaps in our law enforcement 
programs. Growers were exploiting the situation by moving their 
operations into remote areas of Sequoia National Park. The 
problems we are discovering frequently at Sequoia are 
emblematic of the challenges facing law enforcement, park 
rangers and other law officers in remote areas, particularly in 
our case NPS lands. These are at elevations conducive to 
growing and where water is available. It also exemplifies our 
struggle to protect cultural and natural resources as the point 
was made earlier by the chairman.
    These drug cartels are very secretive, they're well-
equipped, they're highly organized, and they're well-supplied. 
Many of these growers are armed. Our staff have found many 
individuals with weapons and knives, as well as evidence of 
weapons when sites have been abandoned. Booby traps have been 
found, such as bear traps that can injure or kill a person. 
And, these growers know how to use these materials for 
violence. They hire people who cannot or pretend not to speak 
English, and when these people are caught are loathe to--in 
case they can't speak English, of course they can't, but where 
they--even where they can are loathe to come forward with 
information.
    The threats to visitors and employees remain our highest 
concern. The devastating effect on resources, however, is as 
significant, particularly for the long-term; this includes 
wildlife as well as other park resources. Tons of trash have 
been located at these sites in open as well as buried pits. 
Many of these are hauled out by rangers and other staff 
members. We've got lots left in the case of Sequoia National 
Park where they have not been able to clean up yet. There's 
human waste, food, garbage, poached animals, shovels, buckets, 
and miles of irrigation hoses.
    In addition to the issues here at Sequoia National Park, 
let me just mention Point Reyes and Whiskeytown for a moment. 
In the past 10 years, rangers at Point Reyes National Seashore 
have discovered 44 illegal marijuana operations. Last year, a 
marijuana site with a multimillion dollar street value was 
removed and two growers were arrested. No illegal sites have 
been discovered this year so far.
    At Whiskeytown National Recreation area last year, rangers 
discovered marijuana gardens. When they became suspicious of a 
massive tadpole die-out--this is an interesting story--park 
rangers tracked the water off the canyon to the water source 
where a small dam had been jerry-rigged with fertilizer. A 
storm washed out the dam. The fertilizer went down the stream, 
poisoned the tadpoles, and that's how the rangers discovered 
this. They followed the stream up--upstream to an area that was 
flat that had been disguised for ground and air surveillance 
where the garden was located.
    Again, this year no gardens have been discovered at 
Whiskeytown. But we believe the growers are continuing to 
conduct their illegal activities in that area as well, as 
everybody has said, up and down the State and occasionally in 
national park lands.
    Our efforts here locally have been very rewarding from an 
interagency standpoint. I come from a law enforcement 
background myself. I was a law enforcement ranger for 22 years 
and the deputy chief ranger for the National Park Service for 
some years. And, the cooperation here between our ranger staff 
and agents with Tulare County Sheriff's Department, the State 
Department of Justice/Bureau of Narcotics, as well as the other 
State and local agencies have been truly rewarding. DEA has 
been cooperative on intelligence and prosecutions as has been 
the U.S. Attorney's Office.
    Wrapping up my discussion here, let me just say that in 
addition to these excellent relations, obviously more needs to 
be done. We intend to enhance those relationships working 
toward--ultimately toward prevention of this activity in the 
case of national parks, and better management of eradication in 
these drug cartels down the road.
    That will conclude my verbal statement. I'll be happy to 
answer questions at an appropriate time.
    [The prepared statement of Mr. Martin follows:]

    [GRAPHIC] [TIFF OMITTED] T3426.006
    
    [GRAPHIC] [TIFF OMITTED] T3426.007
    
    [GRAPHIC] [TIFF OMITTED] T3426.008
    
    [GRAPHIC] [TIFF OMITTED] T3426.009
    
    [GRAPHIC] [TIFF OMITTED] T3426.010
    
    [GRAPHIC] [TIFF OMITTED] T3426.011
    
    [GRAPHIC] [TIFF OMITTED] T3426.012
    
    [GRAPHIC] [TIFF OMITTED] T3426.013
    
    Mr. Souder. Thank you. As I presume you figured out, the 
green light doesn't work. We don't have a yellow light. But the 
red light works real well.
    Mr. Gaffrey.
    Mr. Gaffrey. Chairman Souder, Chairman Ose; Congressman 
Nunes, good to see you again.
    Mr. Nunes. Good to see you.
    Mr. Gaffrey. Thank you for the opportunity to present the 
Department's views on the impacts of drug production on public 
lands. I am Art Gaffrey, Forest Supervisor for the Sequoia 
National Forest. Accompanying me today is Jerry Moore, Special 
Agent-In-Charge, and Gilbert Espinosa, the Deputy Regional 
Forester, both in the Pacific Southwest Region in California.
    Drug production and cultivation on Federal lands is a 
significant source of domestic production and supply of illegal 
drugs, especially marijuana. The Drug Enforcement 
Administration has identified the major domestic outdoor 
cannabis cultivation areas in the United States, these being 
the States of California, Hawaii, Kentucky, Tennessee, Arkansas 
and Missouri. Marijuana sites are typically found in the more 
remote locations on public land nationwide. Production is 
increasing on Federal and State lands as stepped-up law 
enforcement and drug eradication in urban and rural areas have 
forced traffickers to move to the seclusion of forests, parks, 
refuges, and other public lands. Additionally, growing 
marijuana on Federal lands offers the grower immunity from 
asset forfeiture laws.
    The production and protection of natural resources and 
overall resource stewardship have been an integral part of 
forest management since the inception of the first Forest 
Reserve System in 1897. Today there are 155 national forests 
and 20 national grasslands entrusted to our care to provide a 
variety of uses for the American public, including recreation, 
forest products, livestock grazing, minerals, forest 
exploration, fish and wildlife habitat, as well as 
preservation.
    As the population of the country has grown, more and more 
people are using their national forests, and these users are 
increasingly from an urban background. Over the years there has 
been a trend in the rise of drug-related crime and violence on 
American public lands, which has caused us to focus specialized 
law enforcement resources to address the issue and increase 
cooperation with our partners in combating crime and protecting 
the public. Criminal activities such as personal assault, gang 
activity, theft of Federal property, vandalism, and drug 
cultivation divert limited dollars that could be utilized to 
improve resource facilities and conditions.
    The Sequoia National Forest and Giant Sequoia National 
Monument are experiencing perhaps the most significant 
marijuana cultivation activity compared to other national 
forests in the country. In 2002, there were 26 criminal cases 
investigated with a total of about 50,000 plants eradicated and 
6 arrests made. This year so far we have over 28 marijuana 
gardens that have been found with over 82,000 plants 
eradicated. The Sequoia National Forest covers approximately 
1,700 square miles in the southern end of the Sierra Nevada 
mountain range and is a heavily visited forest that provides 
some of California's most valuable recreational activity and 
habitat for wildlife and plants. Recreation visits to the 
forest and the monument exceeds the Sequoia-Kings Canyon and 
Yosemite National Parks combined. With the increase in public 
visitation and use of the Sequoia National Forest and Giant 
Sequoia National Monument, there is a potential danger as drug 
activity continues to rise.
    Another alarming trend is the increase in illegal drug 
activity on national forest lands has been the heightened 
amount of violence used by growers. Most recently, three 
separate shooting incidents occurred between law enforcement 
and growers within a 3-week period in California. Violence 
among marijuana growers has also increased in the last 2 
months. One grower was found shot to death in a marijuana site 
camp in Fresno County and second grower was found stabbed to 
death in Mendocino County.
    Armed growers are also confronting forest visitors. 
Marijuana is typically harvested during the months of September 
and October, the hunting season of many forests, resulting in 
some armed confrontations between marijuana growers and 
hunters.
    We are still fortunate, though, that most gardens are 
located in remote locations that are lightly used by the 
public. Still, we are concerned that as marijuana cultivation 
intensifies on national forests, there is greater potential for 
forest visitors and employees to be seriously injured or 
killed.
    When a garden is located or suspected, any active agency 
resource work in the area is suspended, and the garden is 
eradicated as soon as law enforcement resources become 
available.
    The Forest Service law enforcement officers work with State 
Campaign Against Marijuana Planting Program, County Sheriff's 
Department, and others to apprehend suspects and find and 
destroy marijuana gardens.
    The cultivation of a marijuana garden causes a significant 
resource and environmental damage. When a garden is cultivated, 
vegetation in the area is removed, water is diverted from 
creeks and streams, using a pipe or hose for gravitational 
irrigation, affecting wildlife in the riparian area. A 2,000 to 
3,000 plant garden may affect an area approximately 10 acres, 
with the water source over 1 mile away. The area around a 
marijuana garden may also be cleared of vegetation to be used 
as a makeshift camp, which includes a sleeping area, kitchen, 
processing area, and garbage pits filled with refuse, human 
waste, fertilizer and poisons.
    The presence of a garden can halt firefighting efforts in 
an area or can be the source of a wildfire. On the Hume Lake 
Ranger District next to the national park here, a wildfire in 
1999 was started by a campfire in a marijuana garden. 
Firefighters found the garden and had to stop suppression 
activities until law enforcement could clear the area.
    Methamphetamine laboratories are another common illegal 
activity in national forest lands.
    The meth labs and dumpsites are a source of hazardous 
materials given the corrosive and poisonous chemicals used to 
make the drug.
    In summary, the Forest Service is proud of its employees 
and partners who work hard to ensure America's national forests 
are safe for all users. We have seen the trends and understand 
the huge job ahead of us of continuing to fight these illegal 
activities that destroy our national resources, threaten 
visitor and employee safety, affect the public enjoyment and 
use of the land, and, indeed, inhibit the needed resource work.
    The war on drugs does not recognize ownership boundaries or 
agency responsibilities. Multi-agency partnerships are critical 
in providing an integrated and coordinated approach to address 
the statewide crisis.
    This concludes my statement. I would be pleased to answer 
any questions that you may have.
    [The prepared statement of Mr. Gaffrey follows:]

    [GRAPHIC] [TIFF OMITTED] T3426.014
    
    [GRAPHIC] [TIFF OMITTED] T3426.015
    
    [GRAPHIC] [TIFF OMITTED] T3426.016
    
    [GRAPHIC] [TIFF OMITTED] T3426.017
    
    [GRAPHIC] [TIFF OMITTED] T3426.018
    
    [GRAPHIC] [TIFF OMITTED] T3426.019
    
    [GRAPHIC] [TIFF OMITTED] T3426.020
    
    [GRAPHIC] [TIFF OMITTED] T3426.021
    
    Mr. Souder. Thank you very much.
    Mr. Delgado.
    Mr. Delgado. Chairman Souder, Chairman Ose, Congressman 
Nunes, thank you for the invitation to testify at this joint 
hearing regarding the impact of marijuana cultivation and 
methamphetamine production in the Central Valley, CA area. I'm 
Stephen C. Delgado, Special Agent in Charge of the San 
Francisco division. And, on behalf of our Administrator Karen 
Tandy and the men and women of DEA, we thank you and we 
appreciate your strong support.
    The use of public lands to grow marijuana is not a new one, 
but recent incidents have brought the seriousness and 
consequences of this criminal action into sharp focus for the 
public. In the past years, isolated gardens with small numbers 
of plants were the norm of the plots discovered on public land, 
but more recently the number of groves containing tens and 
hundreds of thousands of plants has increased. The drug 
organizations involved destroy the environment, ultimately they 
destroy our community by spreading the devastation of drugs and 
providing financial support to violent criminal organizations.
    While the public lands provide close proximity to packaging 
distribution networks, it's a lengthy growing season based on a 
mild climate and rich soil that attracts marijuana growers.
    With the remoteness and vast spaces public lands provide, 
armed and extremely dangerous drug traffickers and cannabis 
cultivators are infesting California's public lands. They 
protect their drug operations through the use of force, booby 
traps, intimidation, and high-powered weaponry. These are not 
farmers, these are armed guards protecting a crop of hundreds 
of thousands of plants with a street value of over $1 billion.
    Often the workers are non-English speaking illegal migrant 
workers from Mexico brought to the Valley specifically to 
manufacture methamphetamine or to tend cannabis groves. These 
individuals are regarded by the drug producing organizations as 
renewable, disposable resources.
    While California was responsible for more than 15 percent 
of the methamphetamine labs seized in the United States, over 
75 percent of the super labs were seized in California, and a 
substantial portion of that has been located right here in the 
Central Valley area. This is a frightening statistic when you 
consider they can produce over 10 pounds of high-purity 
methamphetamine per cook cycle at a minimum. Many times we were 
finding labs with a capacity to produce as much as 100 pounds 
at a site. Keep in mind that for each pound of methamphetamine 
produced, more than 5 pounds of hazardous waste materials are 
generated.
    Since 2000 the area has experienced a dramatic increase in 
the number and scale of clandestine methamphetamine laboratory 
operations. These labs are situated in the Central San Joaquin 
Valley because of its sparse population and proximity to 
principal precursor chemical companies, private air strips, two 
international airports, and several major interstate highways. 
This makes for--the Valley a primary manufacturing trans 
shipment distribution and conception area for methamphetamine.
    The production of methamphetamine and marijuana has had a 
devastating and irreparable impact on California lands. 
Environmental damage occurs when marijuana growers burn off the 
native vegetation and destroy national wildlife habitats by 
clearing cultivation areas with chain saws and spread 
fertilizers and pesticides.
    In northern California areas, chemicals from large-scale 
meth lab dumpsites have killed livestock, contaminated streams, 
and destroyed large trees and vegetation. In addition to the 
environmental damages, meth labs caused injury from explosions, 
fires, chemical burns, and toxic fumes. In fact, one out of 
every five meth labs discovered is due to a fire.
    DEA's response to the threats is multifaceted. We are 
dedicated in working with our counterparts of the Forest 
Service, National Park Service, BLM, Central Valley HIDTA, and 
all State and local agencies.
    The San Francisco field division marijuana enforcement 
group is assigned to investigate major commercial marijuana 
cultivators in cooperation with Federal, State, and local 
government.
    DEA's Domestic Cannabis Eradication/Suppression Program has 
granted approximately $1.2 million to 29 counties and 
California's BNE this year. Over the last 10 years, the number 
of participating counties has almost doubled. This year DEA 
reallocated three special agents specifically to address the 
methamphetamine threat in the Central Valley, one for a Fresno 
resident office, and two for the Bakersfield resident office. 
In DEA's Sacramento, Bakersfield, and Fresno offices, 
methamphetamine-related targets represent a majority of our 
priority targets.
    In conclusion, DEA remains committed to targeting, 
disrupting, and dismantling the most significant drug 
trafficking organizations threatening our Nation and depriving 
them of their ill-gotten profits. As these organizations 
migrate from their urban centers to California's public lands, 
DEA will continue to respond with its full capabilities.
    Again I would like to thank you for the opportunity to 
testify today, and are happy to answer any questions at the 
appropriate time.
    [The prepared statement of Mr. Delgado follows:]

    [GRAPHIC] [TIFF OMITTED] T3426.022
    
    [GRAPHIC] [TIFF OMITTED] T3426.023
    
    [GRAPHIC] [TIFF OMITTED] T3426.024
    
    [GRAPHIC] [TIFF OMITTED] T3426.025
    
    [GRAPHIC] [TIFF OMITTED] T3426.026
    
    [GRAPHIC] [TIFF OMITTED] T3426.027
    
    [GRAPHIC] [TIFF OMITTED] T3426.028
    
    [GRAPHIC] [TIFF OMITTED] T3426.029
    
    [GRAPHIC] [TIFF OMITTED] T3426.030
    
    [GRAPHIC] [TIFF OMITTED] T3426.031
    
    Mr. Souder. I thank you each for your testimony. I'm now to 
going to yield to Mr. Nunes for the start of questioning.
    Mr. Nunes. Thank you, Mr. Chairman.
    I want to first introduce--I've seen a few people that have 
trickled in. I want to introduce the sheriff of Tulare County--
I see him there in the back. If Mr. Wittman would--Sheriff 
Wittman, would you please stand and be recognized to the 
committee.
    Thank you for being here.
    I also saw Shelly Abajian from Senator Feinstein's office 
who showed up. Nice of you to be here.
    And from George Radanovich's office Brian Wise. I saw him.
    Thank you for being here.
    In June a hiker found a crop of 40,000 opium plants in the 
Sierra National Forest. And, of course, I think it was--was it 
last week up above Porterville, we found several million 
dollars' worth of marijuana plants that were found.
    And this question is for all of you: Do you see the problem 
getting worse, moving into other drugs? Do you feel like you 
have control over the problem? And if not, what do you think 
the highest priorities are?
    Maybe we'll start here on my right with Mr. Delgado.
    Mr. Delgado. Congressman Nunes, it's an emerging threat 
right now that we're looking into. We don't know the vast 
complexity of this situation right now. It's just good that 
this is a good start with all of the agencies.
    Mr. Nunes. OK. Mr. Gaffrey.
    Mr. Gaffrey. Congressman, you asked if we've seen an 
escalation. As my testimony mentioned, we eradicated about 
50,000 plants of marijuana; we are up to 89,000 this year. So 
we are definitely seeing an increase in the activity on 
marijuana growing in the national forest, yes.
    Mr. Nunes. And what do you think is still out there? Do you 
think there's----
    Mr. Gaffrey. That's tougher to get a handle on how much are 
we getting in there. We're not sure about how much of it we're 
actually capturing.
    Mr. Nunes. OK.
    Mr. Martin. Congressman Nunes, a very good question. We 
think it's generally a growing problem, that we haven't seen 
the ultimate of yet.
    Last year we eradicated about 34,000 plants within the 
park, this year--only so far this year, about 26,000 28,000. We 
did increase our preventive efforts this year, which we hope 
are helping with that, but that's local--if that turns out to 
be productive, that is local improvement but not a general 
improvement. And in our view this is a big broader problem, the 
parks are part of that but only part.
    Mr. Nunes. What are the--can you kind of give a list of the 
drugs that you found so far over the last several years.
    Mr. Martin. In our case it's almost entirely marijuana 
cultivation.
    Mr. Nunes. OK.
    Mr. Martin. I'm aware of no methamphetamine labs.
    If I could defer--or if I could ask our special agent if he 
is aware of any, he might have better information than I do on 
meth labs. Could I ask him----
    Mr. Nunes. Sure. Sure.
    Mr. Martin. Just marijuana in the case of the parks.
    Mr. Nunes. Just marijuana. OK.
    Well, thank you. Thank you all. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    In what little backpacking I've done, the times when I've 
gone, it seems like I've had to get a permit to go in and I've 
got to tell folks where I'm going. And, this is Devil's 
Postpile, Mount Whitney, Yosemite, places like that. Does 
Sequoia have the same requirement?
    Mr. Martin. Yes. Yes, we do.
    Mr. Ose. So if someone wanted to come in, the person would 
have to go to a park station or electronically get a pass or a 
permit and the permit would list the terms and conditions under 
which the person could enter?
    Mr. Martin. Correct.
    Mr. Ose. Is there evidence that people who are doing this 
illegal drug production are complying with that? Are they 
coming and getting a permit?
    Mr. Martin. No, they're not. Except in--interestingly 
enough, in two cases we know of two growers that actually 
bought park passes so they could get into the entrance stations 
without any questions being asked, kind of using our own system 
against us a little bit. But where most of this growing occurs, 
in fact, almost all of it, is in more out-of-the-way parts of 
the parks in our case.
    For example, on the Mineral King Road, you don't have to go 
through one of our entrance stations to get into the Mineral 
King part of the park, and that's where the majority of the 
cultivation has occurred in Sequoia.
    Mr. Ose. So that road is not gated or anything?
    Mr. Martin. No.
    Mr. Ose. Is that for fire protection purposes or otherwise?
    Mr. Martin. That's a county road outside the park most of 
the way.
    Mr. Ose. OK. So they come up the county road, they stop 
their vehicle and get out of their vehicle, they walk into the 
park.
    Mr. Martin. Right. They do drive into the park in a few 
places, and we haven't put any controls on that road. The road 
is a county road even when it's inside the park.
    Mr. Ose. All right. Now, from a logistical standpoint, 
these folks are in the park from April to October? That's the 
testimony.
    Mr. Martin. Largely.
    Mr. Ose. That's the growing season, so to speak.
    Give me some sense of the campground. I mean, they've got 
5,000 eggs that they haul in? Do they have a propane oven? How 
do they survive?
    Mr. Martin. You can see some of the pictures here of--
there's a picture of one of the camps.
    Mr. Ose. Describe this. There is a cot with sleeping 
blankets and below it looks like there is some bleach and 
various other chemicals.
    There is a tent over the sleeping quarters. Underneath the 
actual sleeping platform you have various food stuffs, some 
chemicals, looks like a poncho there. How did they get all of 
this stuff in?
    Mr. Martin. Well, obviously they drive it in clandestinely, 
middle of the night or under cover of facilities of some kind. 
You know, it's not hard to cover up the back of a pickup truck 
and look like you're just going camping, you know, from what 
you might see inside the cab; or they come in the middle of the 
night maybe during times when our patrols are not present.
    But obviously there's a lot of stuff there, and it is 
possible that we could do a better job of trying to observe and 
monitor this activity. We did have two additional people that 
we funded this year to do that. We hope that's helping. But 
obviously they're bringing a lot of stuff in and there may be 
ways that we can better discern that.
    Mr. Ose. Well, the reason I ask is that there have to be 
remote areas that they're targeting for production. Now, access 
to those remote areas, frankly, with all due respect, I've 
toted this stuff on the back of my back. And, if I have to go 
10 miles carrying 60 or 80 pounds, that's not a lot of fun.
    Are there remote areas that are proximate to roads that you 
find to be particularly susceptible to this kind of activity?
    Mr. Martin. That's correct. Where most of these gardens are 
in the park are within a mile or two of a road. We're not 
talking a long trail into the very remote back country, but we 
are talking very rugged country. And, some of your staff 
members we were pleased to be able to take them on a tour of 
one of the growing areas yesterday. And, the place they went to 
is typical of the growing sites, very steep, very rugged, but 
not too far from a road. It takes a while to get through this 
rugged country because it's brushy, steep. There is other stuff 
out there. There's poison oak in a lot of these areas. They saw 
a rattlesnake yesterday, which is not uncommon.
    Mr. Ose. Probably scared the rattlesnake.
    Mr. Martin. I hope it did. I heard it wasn't really one of 
the big ones, thank goodness.
    But they're not going into extremely remote areas. They're 
going near roads, but still at a distance from the road that 
takes somebody in very good condition and very dedicated to 
what they're doing to get in there. So, these people are rugged 
individuals. They're strong. They're up to the task. But 
they're not going into the high country, what we usually 
consider as our back country.
    Mr. Ose. So you're not talking 20 miles, you're talking a 
mile or two?
    Mr. Martin. Yes.
    Mr. Ose. I'm going to come back to these questions, Mr. 
Chairman. Thank you.
    Mr. Souder. Mr. Delgado, do you have any idea or what's the 
latest estimate on the percent of marijuana grown in the United 
States close to the border?
    Mr. Delgado. No.
    Mr. Souder. Do you know if that statistic is available?
    Mr. Delgado. It would be through EPIC.
    Mr. Souder. OK. I want to make sure we get that into the 
record. That any similar idea on methamphetamine?
    Mr. Delgado. Methamphetamine?
    Mr. Souder. Yeah.
    Mr. Delgado. I have some statistics on the labs that we 
have seized here.
    Mr. Souder. But you don't know what percentage that is?
    Mr. Delgado. No.
    Mr. Souder. Let me start with the Forest Service.
    For some time the Forest Service has had more of a narcotic 
focus than the other organizations in the Interior Department, 
Agriculture Department, and related. When in your experience 
did this start it, could you describe a little bit. Do you have 
designated rangers who look for marijuana? Do they have special 
training for narcotics expertise? Are they armed and trained 
how to handle those arms? What do they do if they come up to a 
chemical or biological area like a meth lab? Difference on how 
to find THC? What is the Forest Service in particular trained 
to do, how many people do you have particularly in Sequoia, and 
how long has this gone on?
    Mr. Gaffrey. I can answer on Sequoia National Forest, but 
if you would like a more regional national view, I could bring 
the special agent in charge here that I introduced in my 
statement.
    On the Sequoia, we have approximately five trained officers 
and two criminal investigators that are all trained in all 
aspects of the law enforcement, including the drug 
identification and eradication.
    Mr. Souder. And when did that start?
    Mr. Gaffrey. Jerry, when did we get our drug authority 
services----
    Mr. Souder. Let me administer the oath to you.
    Will you state your name and spell it for the record.
    Mr. Moore. Jerry A. Moore, Special Agent in charge for the 
Forest Service.
    Mr. Souder. You need to spell your last name to make sure--
--
    Mr. Moore. M-o-o-r-e.
    Mr. Souder. OK. Will you raise your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show he responded in the 
affirmative.
    Do you know when the training started when the Forest 
Service initiated this?
    Mr. Moore. Well, the training actually started back in the 
early 1980's when we began to notice problems coming up from 
San Francisco and the culture moving out and growing marijuana 
for personal use, that they became so good at it that people 
started buying it and it became a desired crop.
    We derived our specific drug enforcement authority in 1984 
and had a number of people that were trained. We had a lot of 
dedicated folks. We had a large number of officers that were 
involved in this. In the early 1980's and early 1990's, some of 
those were full-time law enforcement people, some of them were 
in collateral positions. All of the folks that are involved in 
drug enforcement now are full-time officers.
    Mr. Souder. Are they designated as drug enforcement 
officers or law enforcement officers with drug enforcement 
responsibility?
    Mr. Moore. They're designated as law enforcement officers. 
We have a dedicated drug enforcement unit that we established 
within the last 2 years specifically of this growing problem.
    Mr. Souder. Is that----
    Mr. Moore. Everyone in the program does do drug enforcement 
at times.
    Mr. Souder. Is that a mobile unit that you can move; in 
other words, if the Sequoia National Forest gets a bigger 
problem than what they have, can Mr. Gaffrey go to the Forest 
Service and say I need help?
    Mr. Moore. Yes. We move our folks around a lot. In fact, 
last weekend when we had the big garden down here on the Tule 
River Indian Reservation, we suspected part of that was on 
National Forest land, and we moved about 10 officers overnight 
to do additional patrols.
    Mr. Souder. In the National Forest, Mr. Gaffrey, if you 
have that, do you also work at all with DEA and the local 
HIDTA, local sheriff, what--and what do they need to do to come 
into the forest and work with you?
    Mr. Gaffrey. That's an interagency group, not only the 
State but the CAMP program, DEA. We have the BLM officers, the 
national park officers. County Sheriff's Department is very 
much a league in helping us in this problem.
    One of the things, for instance, on the picture here at our 
campground--this is speaking also, Mr. Nunes, about the 
increase--here's a campground that you come and pay a fee. And 
this person and his 15-year-old son were drying and processing 
their crop, around $74,000 worth of street value right there in 
a campground site.
    But, yes, to answer your question, as soon as we find a 
plantation manned along with a National Guard's identification 
unit aircraft, it's an interagency whenever we find one of 
these.
    Mr. Souder. Mr. Delgado, does the DEA need to tell the 
forest service when the other forest service is----
    Mr. Delgado. We do, Congressman. We do. And every----
    Mr. Souder. Is that a requirement by law or courtesy?
    Mr. Delgado. Well, we have an MOU with them. And it's a 
courtesy thing. We're a small group up there, so everybody 
knows each other and everybody needs the manpower, so if you 
need assistance we'll come in and assist.
    Mr. Souder. OK. I'm going to yield back to Mr. Nunes, and 
I'm going to followup a little bit later.
    Mr. Nunes. Thank you.
    There's been various reports, Mr. Gaffrey, about Mexican 
nationals up here being armed. Can you describe some of the 
incidents that have happened with law enforcement and other 
public agencies in the forest regarding these Mexican 
nationals?
    Mr. Gaffrey. If you would allow me to ask Mr. Moore on the 
law enforcement side just to give you a handle on some of the 
examples that our officers have come up with.
    Mr. Nunes. OK. Jerry.
    Mr. Moore. Thank you, Art, Congressmen.
    We have experienced a tremendous amount of influx of these 
organizations. All over the State we've found evidence of the 
drug trafficking organizations in every national forest here in 
California. Typically we find firearms in almost every case 
with these folks. They have brandished those weapons in the 
past. They've showed a little reluctance in years past, even 
though we've had encounters. A hunter and his son were injured 
in an incident in a marijuana garden up on El Dorado. We've had 
a grower killed in Madera County 2 years ago, where he 
encountered a law enforcement group coming in to an operation. 
He raised a weapon, and the deputy sheriff shot him.
    This year we've really seen kind of an exponential rise, 
particularly 3 weeks ago in three separate incidents where we 
had shooting of four growers. Also, during the same week we had 
some hunters that were accosted by firearms. They were able to 
get out of there without any shooting incident. But I think the 
hunters, fishermen, and other people out there are constantly 
accosted by these folks, and it's usually associated with 
firearms. Or, in one incidence on Los Padres, where a deputy 
sheriff stepped in a bear trap, and only by luck he caught a 
portion of it and it clipped his heel but didn't have an 
injury. But booby traps out there present a problem to hikers 
and other visitors and our employees as well as visitors of the 
national parks.
    Mr. Gaffrey. Also Mr. Nunes, to give you an example, as the 
land manager during our management of the McNally fire, a very 
large fire here last year, we would have members of the public 
all of a sudden show up on our dirt roads that would have no 
vehicle, be walking on the road in front of where this fire was 
coming to, possibly smelling of marijuana, and no real 
explanation of why they were there, in more than one or two. I 
mean, a number that says, gee, the people are coming out of the 
woods before this fire. So there's a personal experience I can 
share with you that we have seen escalation. And, as 
emergencies show up people show up out of the woods for no 
reason at all or no explanation of why they're there.
    Mr. Nunes. And, how about the Mexican cartels. I mean, I've 
read a lot about this that when you get up there and you do 
arrest someone, oftentimes it's someone who's not a legal 
citizen of the United States.
    Mr. Moore. That's correct.
    Mr. Nunes. And, what happens to these individuals after you 
arrest them, what do you do with them?
    Mr. Moore. Well, we generally--when we try to do a 
debriefing to find out some intelligence, we're very interested 
in getting involved in what's--how these organizations are 
organized, how they're working, how they're supporting their 
folks, are their families being threatened down in Mexico and 
they're impressed labor up here, are they being paid? So we're 
trying to do that. Typically they don't want to talk to us, but 
on occasion we have had a few folks, we send them over to the 
border patrol and they get deported and they're probably back 
the next week.
    Mr. Nunes. The ongoing problem.
    What do you see that we could do to help you and others 
that are here at the table today in patrolling and stopping 
some of this activity on public lands?
    Mr. Moore. We don't have enough resources to handle the 
problem. It's an escalating issue that a few folks that I have 
are literally working them, you know, beyond what I feel is 
safely done. Every county sheriff's office is inundated with 
this problem. They have to take away deputies from other 
business and things in the counties to handle these situations. 
As the park superintendent stated, you have to have a concerted 
force that concentrates on working on these organizations, and 
that's what it takes to take them down.
    Mr. Ose. When you talk about resources, are you talking 
about the coordinated effort between Federal, State, and 
locals--one agency might have aircraft, another might have 
vehicles, and yet a third might have personnel? Is that the 
kind of thing you're talking about?
    Mr. Moore. Absolutely. Being involved in this in the last 
23 years, mainly in California here, I'm absolutely convinced 
that no one agency has the resources to do that. When they all 
come together and work and combine resources and use equipment 
from one manpower from another--other assets, we are 
successful. And, I think the CAMP program and what we 
accomplished in the early 1980's and what they're trying to do 
now is a prime example of that.
    Mr. Ose. OK.
    Mr. Nunes. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Ose.
    Mr. Ose. I want to go back to my question about the 
proximity to roadways for production.
    Mr. Martin, it would seem to me that the people that are 
doing this stuff come to the park for a reason, whether it's 
climatological or the soil quality or something. And, before I 
start asking you questions about this--is that your experience 
at DEA is that the meteorological conditions that exist at 
Sequoia, proximity to major urban areas, the remoteness, and 
the soil quality with the available water, is that what's 
drawing production in the Sequoia?
    Mr. Delgado. Absolutely.
    Mr. Ose. Do any of the agencies involved ever coordinate 
with the U.S. Geological Survey in terms of identifying the 
types of soils that would be most conducive to producing 
marijuana?
    Mr. Delgado. I've never heard of us doing that, 
Congressman, no.
    Mr. Ose. The reason I asked that is that these cartels are 
businesses. That's what this is. It's a business designed to 
produce illegal drugs. And as business people, it seems to me 
that the people that are behind this would look for areas where 
the climate and the soil can help maximize production. And, 
unless we can take access to Internet resources or access to 
U.S. Geological Survey and coordinate to deteremine that this 
area would be good and this area is not very good for drug 
production. I'm trying to identify the land characteristics 
that drug producers seek out.
    Now, in the ranger's operations, do you have Sequoia mapped 
out by USGS in terms of the types of soils you have?
    Mr. Martin. USGS has done a lot of work here. And, whether 
we've got real detailed soil maps or not, I'm not positive I 
could get that information for you. We do have very good 
biological vegetative information.
    Mr. Ose. Do you see a pattern in where these camps turn up?
    Mr. Martin. Yes.
    Mr. Ose. What are the characteristics?
    Mr. Martin. They're at a certain elevation in the midfoot 
hills generally between 4,000 and 7,000 feet elevation in the 
oak forest, which is a very dense forest, hard to look into 
from the air and very hard to get through and generally in 
proximity to water, although sometimes the water is, as was 
mentioned by the forest supervisor, up to a mile away.
    Mr. Ose. The testimony is that it can be piped from up to a 
mile away.
    Mr. Martin. Yes.
    Mr. Ose. It would seem to be that as you layer on 
characteristic after characteristic, we'd be able to narrow the 
areas in which someone might be focusing production. Does DEA 
do any of that?
    Mr. Delgado. No.
    Mr. Ose. Have you taken any initial steps in that 
direction?
    Mr. Martin. Not a lot. Although we do know generally 4,000 
to 7,000 feet and with proximity to water and in the oak 
forest, but that covers a lot----
    Mr. Ose. That's a lot of territory.
    Mr. Martin [continuing]. Country in California.
    Mr. Ose. That's why I asked about the soil.
    Mr. Martin. That is an interesting perspective. And, we can 
query USGS and our own staffs. I don't have an answer for that.
    Mr. Ose. So in effect the discoveries of these camps are 
reactive in nature. We're finding them by accident. We're not 
finding them, as near as I can tell, by any initiation of 
agents out on the backpack trails, so to speak; is that 
accurate?
    Mr. Delgado. Correct.
    Mr. Ose. Now, one of the things that I find interesting is 
that in some of these camps you found fertilizer. The purpose 
of which is to fertilize plants. I'm trying to figure out if 
someone is wheeling fertilizer into a national park, what would 
be the purpose? If you're a ranger in a station, some guy 
drives by in a pickup and you can see fertilizer bags in the 
back, why would anybody bring fertilizer into a national park?
    Mr. Martin. Well, obviously for this purpose; maybe others, 
although it's hard to imagine.
    Mr. Ose. Well, do you have regulatory authority to stop 
people who are bringing fertilizer into a national park? Do you 
have a rule that says a person may not bring fertilizer into--
--
    Mr. Martin. No, we do not.
    Mr. Ose. How would we go about helping you in that regard? 
It would seem to me you cut the precursor chemicals off, you 
make the job as difficult as you can for them.
    Mr. Souder. At least expand the function.
    Mr. Ose. Yes. Make it possible to throw the people out or 
prevent their entry.
    Mr. Martin. Well, some type of ruling is an excellent idea, 
something that had not occurred to us. So this perspective that 
you all bring is rewarding. We could propose a rulemaking or 
possibly that could come through the congressional process.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Souder. I want to compliment Mr. Ose. There's an 
unusual thing in this panel is all of us came in from business 
backgrounds to Congress, which means we're a little different. 
And, I'll tell you that because most people didn't come into 
Congress on a business background. One of the things that 
drives you nuts in this issue is we're always behind. And, the 
question that he just raised is what we keep raising in 
Columbia, we keep raising in--as far as Ecuador, well, what--if 
we do this, what's going to happen next? We go into Iraq, 
what's going to happen next? We go into Vietnam, what's going 
to happen next? We do this in narcotics, what's going to happen 
next?
    It's amazing. We're always like here. In your business, in 
a farm or a retail business or in real estate, if you're not 
figuring out what's going to happen next, you don't do this. 
And, it is just extraordinarily frustrating because we're 
always behind. Now, there's many reasons. We have a 1-year 
budget cycle. We have 2-year election cycles. Some of them are 
structural. But a lot of it is we don't have people who are 
thinking that way, and it's a change we need to make is where 
are we going to head next, because the yield is going to be 
different. It doesn't mean they won't irrigate longer or go to 
2 miles, but that ups the cost, which ups the street price. If 
their yields are less, it means there's less quantity. I mean, 
we're not going to necessarily by finding out where the most 
fertile areas are eliminate the growing of marijuana, but we 
can up their cost by making it less efficient for them to be in 
certain areas.
    I wanted to ask a question on the Forest Service picture.
    Mr. Gaffrey. Yes, sir.
    Mr. Souder. Was that picture taken by air, the one which 
shows where the groves are?
    Mr. Gaffrey. Yes.
    Mr. Souder. Was that taken after you had discovered it or 
before?
    Mr. Gaffrey. That's a reconnaissance flight picture.
    Mr. Souder. Meaning?
    Mr. Gaffrey. Meaning it's before.
    Mr. Souder. So that's how you identified that grove?
    Mr. Gaffrey. Yes.
    Mr. Souder. Is this done on a regular basis in the Forest 
Service?
    Mr. Gaffrey. It is done with the Forest Service, county, 
and National Guard helicopters. And, yes, it's done on a basis 
as funding is available during the season.
    Mr. Souder. And, Mr. Moore--I'm sorry, I should know this 
because it was stated earlier and I met you last night--do you 
work with multiple forests, not only Sequoia----
    Mr. Moore. Yes, I do. I work with every national forest.
    Mr. Souder. Do we do any figuring out where in the forest 
lands is this most likely to occur and then do aerial 
reconnaissance if the agreed funds are available?
    Mr. Moore. Well, yes, we do. I guess I have to go back to 
Congressman Ose's point. What you're finding is these people 
are very, very enterprising. What they're really looking for is 
a place that they're going to get away with their activity, so 
they're willing to haul in whatever it takes, whether it's 
fertilizer, water. So we try to do exactly in working with 
USGS. And, we carry cards out and figured out slope and aspect 
and water, whatever. We just found out that they're going to 
plant it where they plant it, where they figure they can get 
away with it.
    Mr. Souder. But, generally speaking, do you agree with the 
premise that it's going to be 4,000 to 7,000 feet----
    Mr. Moore. That would be optimal. Yes, I do.
    Mr. Souder. So the degree that we shut them off from that, 
we've destroyed their optimal places?
    Mr. Moore. That's correct.
    Mr. Souder. And, do we systematically have funding that 
enables us in the prime planting in the spring to be able to do 
that aerial reconnaissance in the highest risk zones?
    Mr. Moore. Yes, we do.
    Mr. Souder. So that's being done?
    Mr. Moore. Yes.
    Mr. Souder. That means do you feel confident that we're 
identifying a high percentage of the groves right now?
    Mr. Moore. It's a more difficult question to answer. I'm 
not sure how many we're really identifying. We used to figure 
that we were catching and identifying maybe 30 percent of the 
crop. I'd like to say it was higher, but we seem to miss a lot. 
They keep coming back with more and more plants the next year, 
and it seems to indicate to me that they're getting a large 
percentage of their crop in.
    Mr. Souder. Is that picture extraordinarily clear compared 
to most of what you see?
    Mr. Moore. It's a little more obvious than we normally see. 
Sometimes they make it very difficult. They try to train the 
plants and hide it under the canopy and do other things to 
avoid reconnaissance.
    Mr. Souder. I wanted to ask while I'm on this track that, 
Mr. Delgado, in your testimony you've had about the DEA's 
domestic cannabis eradication suppression program. And, Mr. 
Gaffrey, in yours you talked about the ONDCP and Pacific 
Southwest as an initial marijuana project.
    First off, are those two projects working together, the DEA 
cannabis eradication, are you overlapped with the ONDCP----
    Mr. Delgado. No, no. Two separate--two separate issues.
    Mr. Souder. Why wouldn't they be working together, because 
geographical?
    Mr. Delgado. Correct.
    Mr. Souder. Are you focused more on northern California 
or----
    Mr. Delgado. Correct.
    Mr. Souder. And the ONDCP program for the Pacific 
Southwest, what is that defined as, where does that go to?
    Mr. Moore. The ONDCP, we coordinated and worked through the 
National Marijuana Initiative, and we've tried to fund and do 
things all over California. It has had more of an impact here 
in Central California. We've worked with the HIDTA here and 
some other folks.
    Mr. Souder. Mr. Delgado, your program on eradication 
suppression is--I'm trying to figure out obviously how to 
coordinate it.
    Are you more working toward organizations or are you----
    Mr. Delgado. Eradication.
    Mr. Souder. After eradication?
    Mr. Delgado. To help the counties with the eradication, and 
the CAMP program on eradication.
    Mr. Souder. I may have to ask some other people that 
question.
    I want to followup where I was going earlier with the 
Forest Service. Let me ask Mr. Martin on the Park Service, is 
there a similar training program for park rangers that enable 
them to understand narcotics?
    Mr. Martin. I'm not sure of what the elements of the Forest 
Service program are. But we do have a very, very aggressive 
training program for our rangers now, and it has just recently 
been upgraded even more to include multi-week field program, 
maybe multi-month. The actual training in drugs, such as 
marijuana issues, I think is largely site by site. If you have 
a problem or have had it or anticipate it, you do more training 
than that than in an area that doesn't experience that type 
of--for example, when I was working in Alaska, we had a little 
bit of mom-and-pop marijuana growing outside of the parks, but 
it wasn't an issue for us at that time. We didn't focus on it. 
We focused on other law enforcement matters.
    Mr. Souder. Does the Park Service have anything like Mr. 
Moore's program?
    Mr. Martin. I'm not sure what Mr. Moore's program----
    Mr. Souder. Let me actually rephrase that. Is there any 
mobile National Park Service expertise in drugs that are called 
in if you have special problems in Sequoia?
    Mr. Martin. We don't have a focused drug reaction team as 
such. What we do have are SET teams, which we've had pioneered 
many years ago, to respond to any incidents that occur in 
national parks.
    Mr. Souder. OK. What's a SET team?
    Mr. Martin. Special Event Team [SET].
    Mr. Souder. And those are----
    Mr. Martin. And, they are drug trained for law enforcement.
    Mr. Souder. So, for example, in Organ Pipe where the ranger 
was shot, initially there was--and as I walk the park and the 
valley where they had come up and they had trapped him, 
initially there was concern that the Park Service hadn't 
trained the ranger. But, quite frankly, given the sight line--
the superintendent went behind the bush, I was out in the 
stream and looking at the sight line--anybody--it could have 
even went in underneath his vest. It wasn't a matter of lack of 
training of the agent in that case. But nevertheless, he got 
separated from the other government law enforcement agents who 
were at the spot, the DEA, border patrol, and customs.
    And so, what you're saying is in the situation of Organ 
Pipe, where they had to close down over half of the trails at 
this point, there is a Special Event Team that would come in 
after a ranger was dead, or is there a Special Event Team that 
would come in when they say, look, there's a huge problem 
there, the trails are coming off, we need to get some people 
into that park to help work with them?
    Mr. Martin. Either one. If a problem was identified 
upfront, a Special Event Team could come in and work on that 
problem in either a preventive or reaction fashion. Or, 
conversely, if somebody was injured, a serious law enforcement 
incident occurred, they could come in and take care of it after 
the fact in a reaction fashion.
    Mr. Souder. Mr. Ose raised a potential regulation addition, 
as far as are there regulations that currently--these guys 
clearly who are growing the marijuana are violating upteen laws 
already and environmental protection laws including not getting 
a permit to go hiking into much more egregious type of 
penalties.
    Are there existing regulations or laws that make it 
difficult for you to go into these areas that restrict you in 
any way in trying to deal with these?
    I would like Mr. Martin, Mr. Gaffrey, and Mr. Delgado to 
talk about that.
    Mr. Martin. The idea of monitoring the materials used for 
marijuana growing hasn't been fronted to me in the past, and I 
think it's a very, very good idea that we should look toward 
addressing and solving. And, if that's a regulatory solution, I 
believe we should be aggressive about looking to that solution.
    Mr. Souder. But you don't know of any regulation that keeps 
you from going into an area or from taking a vehicle into an 
area or from what you can use to clean up from how you can hunt 
any----
    Mr. Martin. No. There is no regulation against us taking 
action that's needed. Law enforcement action is exempt from 
things like the Wilderness Act or from--well, I don't want to 
get into the Endangered Species Act. I'm not too sure. I can't 
speak authoritatively on that point, but----
    Mr. Souder. Well, frogs are supposed to be one of the early 
warnings. And if tadpoles are dying, you've got a problem.
    Mr. Martin. That seems that way to me. LEFA, you know, 
exempts emergency ongoing incidents, so I'm aware of no 
prohibitions we have.
    Mr. Gaffrey. I'm just going to--I agree with the 
superintendent. I haven't had any experience with regulatory 
problems that come in.
    One other thing that I'd like to share with Chairman Ose 
there is when you talk about possible areas that could be 
located, what we are finding also is that if we do not 
rehabilitate these areas, move the pipe, destroy the campsite, 
they're back. I mean, there's a lot less work to do if we do 
not rehab the site. So there is a general growing area, 
although the characteristics that the other people have talked 
to about water and stuff, but also a previous site is an 
obvious area.
    I kind of interrupted the flow of Chairman Souder's 
question before DEA got a chance at it.
    Mr. Delgado. Well, I----
    Mr. Ose. Hold on a minute, Steve.
    This is a question I want to examine because there are 
large areas of California that are wilderness, and there are 
people who are proposing to add wilderness designation to 
additional areas. Now, as law enforcement rangers, Forest 
Service, Park Service, are you prevented from using mechanized 
equipment in wilderness areas to address this problem under the 
Wilderness Act?
    Mr. Martin. No.
    Mr. Souder. Park Service----
    Mr. Martin. The prohibitions on the Wilderness Act have an 
exemption. That exemption is for purposes of wilderness 
preservation, we can take whatever actions are necessary; then 
we have to justify it. But in cleaning up camps that are 
actually resource damaging, it's clearly an exemption.
    Mr. Gaffrey. We would be very careful at the Forest 
Service. We could use helicopters to remove the material, but 
we would be very careful using mechanized materials to get in 
and out or to try to do--or other activity. We would try to use 
the minimum tool needed to do that, so it might be pack animals 
or otherwise to get the equipment in. But we would not be 
taking motorized vehicles and that kind of stuff to try to 
get----
    Mr. Ose. I want to be clear. Common sense would indicate to 
me that you do what you can to prevent the reoccurrence of it. 
And, I'm pleased to find that there is an exemption, and you 
would not find me objecting to using mechanized vehicles to 
assist the rehabilitation so----
    Mr. Souder. In any kind of Wilderness Act expansion we need 
to look at the Forest Service. My understanding is that the 
Forest Service resisted a lot of the wilderness designation. 
The Park Service, in effect, kind of compromised. The Park 
Service now has more flexibility than the Forest Service in the 
wilderness designation, which is not what most Americans think. 
They think the Park Service would be tougher on it than the 
Forest Service. But there were political reasons that happened, 
and we have to look at how to balance if there's a law 
enforcement action with that.
    I wanted to--and then I'll see if anybody----
    Mr. Ose. Steve hasn't answered your original question.
    Mr. Souder. But do you--I mean, you have a little bit 
different situation, but I have a followup and you can answer 
it with a followup. I wanted to followup on Mr. Nunes' point 
about the cartels, and then we'll see if anybody else has when 
we get to the second panel.
    That how does this precise--if you can first say, are you 
restricted as to what you can and can't do in a national park 
if you work with the cooperation of the superintendent of the 
various agencies?
    Mr. Delgado. I know of no regulations that would be of 
any--it would be obviously in a cooperative effort with a 
national park or the Park Service to do it.
    Mr. Souder. As a practical matter, when they run into a 
group who are growing, how many DEA agents do you have in 
California?
    Mr. Delgado. In California? I could tell you what I have in 
my division.
    Mr. Souder. In your division.
    Mr. Delgado. OK. 300.
    Mr. Souder. And, you come down this far?
    Mr. Delgado. Oh, absolutely. We go down to Bakersfield, 
Kern County, to Siskiyou County.
    Mr. Souder. And into the Oregon border?
    Mr. Delgado. Correct.
    Mr. Souder. So you've got 300 for the region?
    Mr. Delgado. Correct.
    Mr. Souder. And agents----
    Mr. Delgado. I have 148.
    Mr. Souder. Of that 300?
    Mr. Delgado. Correct.
    Mr. Souder. So you have 148 agents. How many of those are 
involved in cannabis eradication?
    Mr. Delgado. At least eight.
    Mr. Souder. So most of these are to do the tracking and 
breaking up of large distribution networks in major cases?
    Mr. Delgado. For marijuana cultivation.
    Mr. Souder. No, I mean in general. Of your 148, most of 
them are involved in trying to figure out who the cartels are?
    Mr. Delgado. Absolutely.
    Mr. Souder. That when something like this occurs in Sequoia 
National Forest or National Park, at what point does this move 
from a Parks or Forest case to where it goes to either you or 
what would be vice now under homeland security, the customs, 
and the kind of tracking the money and the other kind of 
things, what size scale and how do you track these cases in the 
Forest and the Parks and move that into DEA and with what used 
to be customs now is vice and homeland security?
    Mr. Delgado. It would depend on the large grove and what 
intelligence information that we had. If we could expand the 
investigation, Congressmen. If we're just going to go whack and 
stack, we would go whack and stack, but our involvement won't 
be that much. What we want to get into is the investigation and 
see how far we can get through the investigation.
    Unfortunately, with these cases, all of these cases, these 
flyovers, we see these groves and the cannabis eradication, all 
we're doing is eradicating cannabis, we're not getting to the 
major suppliers. And, once in a while we'll just arrest the 
guards that are out there. It's difficult, these investigations 
are extremely difficult to develop an informant, and that's 
basic----
    Mr. Souder. Do you think----
    Mr. Delgado [continuing]. We've come into.
    Mr. Souder [continuing]. Growing operations are providing 
cash to help fund the meth labs in the Central Valley?
    Mr. Delgado. I've heard of incidents that's happened. In 
one case that did happen, that we had intelligence from the 
people that were arrested that told us that they were doing a 
meth lab so they could fund the marijuana grove.
    Mr. Souder. And then you take that case when you see--if 
the locals and the people in the Park and the Forest Service 
can figure that out, then you'll take the case to try to take 
it to the cartel level and try to get back to the Mexican 
organizations.
    Mr. Delgado. Absolutely.
    Mr. Souder. Customs too?
    Mr. Delgado. We haven't worked with customs regarding this.
    Mr. Souder. This is very important, because if we try to 
look to a solution, your term of ``whack and stack'' has to be 
done----
    Mr. Delgado. Correct.
    Mr. Souder [continuing]. Because it's destroying the 
resources in the Parks and the Forest, both recreational and 
preservation. So they have to whack and stack, basically 
meaning get rid of it whether or not they can find the larger 
organization, because it's a threat to their resources.
    But in looking at it from the Federal Government standpoint 
as to how do we address who's in charge of the whack and 
stack--to use that expression--probably DEA and Department of 
Homeland Security aren't the agencies that are going to be able 
to come in and do that. We either have to look to local law 
enforcement expansion or more better trained agents within the 
Forest Service and the Park Service. Because DEA isn't 
interested in that. It's not your skill, not your background.
    Mr. Delgado. Correct.
    Mr. Souder. OK.
    Mr. Nunes, do you have any more comments?
    Mr. Nunes. Not for this panel, Mr. Chairman.
    Mr. Ose. I want to go back to the wilderness discussion. 
Because we had a briefing in Washington with folks from Forest 
Service headquarters, and we got a slightly different 
explanation as to whether or not you can use mechanized 
equipment to mitigate harm here. So, we're going to send 
followup here. I just want to alert you to that. And, we'll 
send the same question the other direction, that we've had 
testimony to--I want you to understand from my perspective--and 
I don't speak for Mark or Devin--but from my perspective, I'm 
in favor of you going in there and addressing the environmental 
damage, and if you need mechanized equipment in wilderness 
areas, you're going to find me supporting. I can defend that. 
That's not a problem.
    The other question I want to followup on is going back to 
the characteristics of a suitable growing site. I'm enough of a 
statistician to be dangerous here, and I'm not good enough to 
be an expert at it. But it would seem to me that your testimony 
about if you don't cure the site, you get a recurrence of the 
activity. You have proximity to roads, even though you have 
very rugged territory. You have a certain elevation you're 
looking for. And, we don't know whether or not someone's 
investigating the soil types before they go into an area. You 
have to have water at least within a mile, so to speak.
    Has there been any statistical analysis in terms of 
identifying where the overflights go? It just seems to me that 
we bring a lot of tools to bear here that are relatively 
inexpensive.
    Mr. Gaffrey. I was going to say I believe there's a lot of 
intelligence gathering before the flight takes off. There is 
intelligence as far as activity, human activity, but also where 
groves have occurred, water in relationship to possibly roads, 
a vegetation-type soil type, I believe all of that is done with 
the Forest Service and with the County Sheriff for overflight 
before. Because, you know, we are looking at thousands of 
square miles, and so there's a lot of intelligence gathering, 
where's our best shot? Realizing that the growers know the same 
thing, you know, that if they continue to grow in the same 
spot, we're going to go there and look at the same--they're as 
creative as we are in trying to find them.
    Mr. Ose. This isn't rocket science. There are certain areas 
that are prime for this stuff and there are certain areas that 
are less than prime. And, it would seem to me that we ought to 
be able to at least proactively--I hate that word, but it 
speaks exactly the way I'm trying--proactively harness the 
resources to examine those areas.
    Now, I want to come back to the issue of fertilizer and the 
regulation. I want to send you a followup question: What is it 
that you would expect to see in someone bringing into the park 
as opposed to what you wouldn't expect them to bring in the 
park? You wouldn't expect them to bring in 100 pound bags of 
fertilizer in the back of their truck, but you would expect to 
see a tent. You wouldn't expect them to bring Clorox--I don't 
know for what purpose--but you might expect them to bring, you 
know, 12 eggs.
    So I'm going to ask you in writing to kind of expand that. 
And, I'm trying to lay a groundwork to allow the executive 
branch to issue a rule that gives you some authority to deny 
entry of people who might have X, Y, or Z in their possession 
when they come to the park gate.
    Mr. Martin. Congressmen, good, we look forward to that 
request and to providing an answer in writing. And it does seem 
to me, again from a common sense standpoint, that taking those 
measures would be productive.
    Mr. Souder. Well, thank you each very much for your 
testimony and to all your----
    Mr. Gaffrey. Mr. Chairman, the deputy regional forester has 
asked me to clarify my answer on the use of mechanized 
equipment. We have the same exceptions that the national park 
when there's an emergency, it's going to be the--the 
determination of an emergency. When there's an emergency, then 
we have the same exceptions that the National Park Service 
does.
    Mr. Souder. So clearly hot pursuit of the individual people 
would be an emergency. Would the existence of marijuana be 
considered an emergency? Can you----
    Mr. Gaffrey. I think that would be a good followup 
question.
    Mr. Souder. Within the Park Service guidelines, would you 
get to make that determination as superintendent?
    Mr. Martin. Yes.
    Mr. Ose. You're asking the definition of an emergency?
    Mr. Souder. [Nods head.]
    Mr. Martin. It's a judgment call in any respect. In my 
judgment it would be.
    Mr. Souder. But you get to make that at the superintendent 
level. At the Forest Service, is that true?
    Mr. Gaffrey. I have the authority to when I determine an 
emergency of certain equipment that I can use, yes.
    We also have a difference in law enforcement on the 
National Forest. We have jurisdiction shared with the County 
Sheriff, which is different than the national park. It has 
exclusive jurisdiction. So it doesn't deal with the wilderness, 
but we do have different laws and authorities and sharing with 
the County Sheriff's that make our opportunities possibly a 
little wider and broader.
    Mr. Souder. We'll explore this a little bit more. I know in 
Missouri and Arkansas it's a huge question too. We have very 
active Members there on our drug task force, so we'll pursue 
that more directly.
    Thank you. I want to thank you each of you, thank each of 
your rangers, each of the DEA agents for putting their lives at 
risk on our behalf.
    We're going to take a 5-minute break, because I often 
forget the stenographer who's over here pounding away, and give 
her a brief break.
    And if the next panel could come forward. [Recess.]
    Mr. Souder. If you'll stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    For the official record, before I did that, the 
subcommittee was back in order.
    We have four witnesses on this panel, Ms. Lisa Mulz, 
superintendent of law enforcement and public safety for the 
California Department of Parks and Recreation.
    Mr. Val Jimenez, special agent supervisor and commander, 
Campaign Against Marijuana Planting, California Department of 
Justice, Bureau of Narcotic Enforcement.
    Sheriff Bill Wittman of Tulare County.
    And, Mr. Joe Fontaine, who's a member of the Board of 
Directors of Wilderness Watch.
    We thank each of you for coming, and we'll start.

 STATEMENTS OF LISA MULZ, SUPERINTENDENT, DEPARTMENT OF PARKS 
AND RECREATION; VAL JIMENEZ, COMMANDER, CAMP; SHERIFF WITTMAN, 
    SHERIFF, COUNTY OF TULARE; AND JOE FONTAINE, PRESIDENT, 
                        WILDERNESS WATCH

    Ms. Mulz. Thank you, sir. Thank you all for inviting me to 
not only give information about my own organization but to hear 
what's going on with sister and brother agencies as to this 
problem.
    I'm the superintendent of law enforcement of California 
State Parks, and I have been a sworn officer for 18 years and 
in parks for 25. Most of that time was spent in the field. At 
this point I've been overseeing our department's law 
enforcement program from a policy point of view, which means I 
sit in an office at headquarters, so I don't have a real good 
idea of what's going on in the actual field. And, our districts 
report to themselves saying we don't get a lot of that direct 
information back to our headquarters.
    California State Parks is about 270 units, and these areas 
are set aside to protect the natural and cultural sensitive 
areas, as well as provide habitat linkages and migration routes 
for the movement of animals and plants between State park 
lines. We cover about a million and a half acres, with about 
18,000 campsites.
    The problem is really undefined for my department. The 
growing season is also the peak season of park visitation, so 
of our law enforcement officers, the majority of them are spent 
in the developed areas working with whatever emergency 
management law enforcement issues should arrive with the 
visitors that are in our units.
    I've talked to the resource ecologists for our department 
about resource damage that occurs with either marijuana 
plantation or a clandestine lab that's located on our 
properties. Currently we haven't seen any large problem with 
anything but marijuana. We have seen some dumping of 
clandestine lab leftovers, precursor chemicals that weren't 
used and whatever garbage is left over, but we have seen quite 
a few marijuana plantations.
    I was asked to approach this from two levels, from the 
resource damage that occurs as well as public safety issues. 
The marijuana cultivation causes a lot of problems in the 
property. Basically ground disturbance, cutting down native 
vegetation, introduction of non-native seeds and diseases 
creates changes in the ecosystem which could result in the 
increase of exotic species. We have tremendous problems of 
exotic species growing on park lands, and they are a threat to 
the natural diversity of an area. They bring in pathogens and 
harm the native ecosystem by competing with and displacing 
native species and causing disease and mortality in plants and 
wildlife.
    As referenced by the earlier folks, they talked about 
diversion of water. Diversion of water, specifically at the 
higher elevations where it's dryer, could result in a 
degradation of local areas as well as the water quality. It 
also helps to increase the area of the growth of non-native 
species in the area because they crowd out the local plants 
which are adapted to a drier environment.
    The largest problem we have is that we have no baseline 
data for a lot of the areas that marijuana cultivation is 
occurring. It's usually in remote areas. The areas have not 
been significantly studied. We don't even know specifically 
what endangered species may be on that property, although we do 
have an idea that they would be located in that area just based 
on where plants usually occur. So in some ways being in remote 
areas is better from a public safety point of view because 
there's less likelihood of visitors wandering into the area. 
But it's difficult to quantify the damage because there's no 
basis of data even recorded for the area, and we don't know 
then what the damage is that has been occurring.
    We also know that marijuana growers kill native wildlife by 
using poison, such as rat poison for small mammals and rodents, 
and additionally shoot and trap deer.
    They also bring in garbage, chemicals and leave behind 
human waste. The other problem we're seeing is when they plant 
along river areas where it may have been cultivated by European 
settlers or the Native Americans they are destroying 
archeological sites.
    The public safety aspect that arises is that we have 
approximately 85 million visitors to State parks. There's a 
typo in the information that was received by our personnel 
folks. We have about 635 Peace Officers assigned to the 
department. There's about 422 of those we're expected to keep, 
with 70 vacancies occurring. That's our total staff that is 
committed to dealing with not only public safety but emergency 
medical situations that arrive, also for resource management 
issues as well as interpretation. So in order for us to shift 
our personnel to deal with this problem, it means that the rest 
of the department is neglected.
    I see that my light came on, so I will make it quick.
    The problem that we've had is really an unknown, but we've 
experienced all of the same issues that have been detailed by 
the Forest Service and the national parks.
    Thank you very much.
    [The prepared statement of Ms. Mulz follows:]

    [GRAPHIC] [TIFF OMITTED] T3426.041
    
    [GRAPHIC] [TIFF OMITTED] T3426.042
    
    [GRAPHIC] [TIFF OMITTED] T3426.043
    
    Mr. Souder. Thank you for your testimony.
    Mr. Jimenez.
    Mr. Jimenez. Chairman Souder, Chairman Ose, Congressman 
Nunes, thank you for having us today.
    My name is Val Jimenez. I'm with the California Department 
of Justice, the Bureau of Narcotic Enforcement, which runs the 
Campaign Against Marijuana Planting [CAMP]. I'm here today with 
my Assistant Chief Dave Hedblom and Dave Preston of the Fresno 
area, as well as Sally Fairchild and Bob Penal from 
headquarters who are experts in the field of methamphetamine.
    I have been involved in law enforcement for 20 years. I've 
had experience with narcotics at every level, from the cartel 
investigations on down to the rave users and street dealers. 
I've also been involved in gangs, suppression and 
investigations. And, for a short time I was assigned to the 
International Liaison for the Attorney General's Office where I 
interacted quite frequently with the Republic of Mexico.
    A question that was brought up earlier about why these 
certain areas. These particular areas mimic where they're from. 
We've had a lot of people that have been arrested that I have 
debriefed that have said that this is the same country. I have 
seen the country, the forest of the State of Michoacan, for 
instance, where they have national parks and national forests 
very similar to these areas.
    The CAMP mission, and what exactly is CAMP, CAMP is 
basically a task force comprised of agents from the Bureau of 
Narcotic Enforcement and also some Federal and local agencies. 
What we do is we come together during the peak season of what 
we consider the harvest season, and we go out and we eradicate 
marijuana throughout the State of California. The State is 
divided up in three regions, and there is a regional team in 
each region operated by the supervisor from the Bureau of 
Narcotic Enforcement.
    We rely heavily on funding from the Drug Enforcement 
Administration. Also, we receive funding from the U.S. Forest 
Service and also from the Bureau of Land Management. OCJP also 
gives us a grant. And also, a level from the California 
National Guard, who comprise actually a third of our work force 
and somebody who we work very closely with.
    What we have done this year, as we have not done in the 
past where we were strictly an eradication program, what we are 
doing now is we are going forward and helping out with 
investigations. Although the investigations that were involved 
were--this year were minimal, they were substantial in that 
they--some of them stretched across the State of California, 
and most of them involved very dangerous Mexican drug 
trafficking organizations that we're seeing now.
    I was present at two of the shootings that occurred in 
northern California where the agents were confronted by 
suspects that were armed with assault weapons. And, of course, 
we were very fortunate that no law enforcement officers were 
hurt. And, four suspects were killed. We were also in the 
southern California area, Riverside County, where there was 
also some incidences where people, unsuspecting public were 
also confronted with armed subjects, and for a short time their 
life was in danger.
    What we're going to do this year and what we're hoping to 
do if we can get the resources to do this, we are trying to 
expand our program to a year-round program where we can work 
during the off-season. Some type of investigations regarding 
indoor groves, and also going back to some of the locations 
where we know they are planting based on the GPS coordinates 
and things that we have. And, we're hoping we can go back and 
look at those areas to see if they're going back and planting 
in those particular locations.
    As we were talking earlier, the homicides--there were about 
six homicides that we could directly document back to these 
groves, not to mention the--of course, the environmental damage 
that everyone has discussed earlier. We are hoping that with 
the added resources, that we could come together and expand 
this program to where we may also add another region, maybe 
condense one of the other regions that we have, and then also 
add a roving team where we can assist directly with 
investigations and surveillances in the gardens themselves, 
hoping to allow us to get in there and make some arrests of the 
people that we're catching in the gardens. It's extremely 
difficult to get these people. We can see them. We can be 
literally yards away from them, and they can still get away 
from us because of the terrain and because they are already 
familiar with the areas. And, of course, we're wearing 
protection, you know, in terms of vests, weapons, and things 
like that. And obviously, they're pretty agile and just 
basically with the clothes on their back getting away from us, 
and that's where it makes it very difficult.
    It is something that CAMP considers a very dangerous 
problem and a threat to the public and the environment. It's 
reached epidemic proportions. There's no doubt about that. I 
think everybody agrees. But I still think it is, by all means, 
controllable. I think we can get in together working closely 
with these agencies. An example is, for instance, the Central 
Valley HIDTA which helped us out toward the end of the season 
with some additional funds. Along with the Forest Service, we 
were able to get an additional 85,000 marijuana plants and 
other arrests within 3 days of the close of the season.
    Commercial marijuana on the public lands is a significant 
and devastating effect on the people, and we think that 
together working closely with the Congress, with the agencies 
that are here today, that we can make a dent in this ever-
growing problem.
    I thank you very much for your time.
    [The prepared statement of Mr. Jimenez follows:]

    [GRAPHIC] [TIFF OMITTED] T3426.044
    
    [GRAPHIC] [TIFF OMITTED] T3426.045
    
    [GRAPHIC] [TIFF OMITTED] T3426.046
    
    [GRAPHIC] [TIFF OMITTED] T3426.047
    
    [GRAPHIC] [TIFF OMITTED] T3426.048
    
    [GRAPHIC] [TIFF OMITTED] T3426.049
    
    [GRAPHIC] [TIFF OMITTED] T3426.050
    
    Mr. Souder. Thank you.
    Sheriff Wittman.
    Mr. Wittman. Thank you for allowing me to be here today. I 
really appreciate all of you coming out here today to help 
identify the problem we have here, and I sense a real 
willingness to assist us.
    I come here with a little different perspective than 
everyone else here today. I'm concerned about the devastation 
of our communities, to our youth, to our families that is 
caused by the drug problem that we have in the Central Valley.
    Just recently as of last week, we took down one garden 
which was just outside the parks which had a total of 74,000 
plants. And what we've heard here today, and which we're well 
aware of, is that 5, 6 years ago we took 100 plants down here 
and 100 plants there. Our biggest concern in Tulare County was 
people growing marijuana inside cornfields and harvesting just 
before the corn got harvested. Now we're more concerned about--
and we noticed that--and I think I speak for all of the 
sheriffs in the State of California--that our concern is that 
the sophistication that has hit us all of a sudden the last 
couple of years, very well-organized, sophisticated. They're 
prepared to stand and shoot it out with us at any time. We 
killed one last year in Tulare County in a shoot-out. They are 
prepared to die for what they consider their property.
    My personal opinion is that we're on the bottom of this on 
the escalation on the ladder, and I think it's going to 
escalate. And, I think if we don't get on top of it, we're 
going to see a time when it's not going to be safe for our 
people to go in and out of our national parks, with the level 
of violence that we see. The garden that we took down the other 
day we found one rifle, but we found a lot of magazines that 
were AK-47s with ammo in them, so they had the firepower to 
take us on if they wanted to.
    Our biggest problem is our limited resources. I think we 
can beat this problem. I think we have the wherewithal. I think 
we've identified the problem. I think we have the people and 
the organizations that can work together to solve this problem. 
We tried to do that with the HIDTA. And, I think we've had a 
major impact in the meth trade. We are the producers of the 
methamphetamine in the Nation, here in the San Joaquin Valley. 
We're all aware of that. And, up until a couple years ago, we 
had very limited resources. By pooling all of our resources 
together and with some help from HIDTA, we've had major impact 
on the drug cartels that are coming into our community.
    This year alone we've taken down in Tulare County 40 labs, 
most of those what we call super labs. There's been times in 1 
day we've taken down three super labs. And so, we know what the 
problem is, it's all about resources.
    Our contract with the Forest Service gives us $17,000 a 
year to fight marijuana. We've spent well over $200,000. Tulare 
County is a relatively poor county, a large county, the seventh 
largest in the State, with limited resources. And so, this year 
I wasn't sure I was even going to be able to keep my marijuana 
team, what I call my step unit. It looked for a while I was 
going to lose it because of the budget constraints we're faced 
with here in Tulare County and statewide for county and local 
law enforcement.
    But our biggest problem is a lack of resources. I feel 
confident we can defeat this if we can--and I would suggest 
that we do something on the same table that we did with the 
HIDTA, is to bring everybody together with some resources and 
have one focal point and everybody working in connection with 
the HIDTA, with the methamphetamine.
    We're all well aware of the problem that marijuana growers 
and methamphetamine dealers and producers are all hand to hand, 
you know. And, some of the questions that--it's not uncommon to 
see Hispanics going down the road in Tulare County with a load 
of plastic pipe, fertilizer. This is not an uncommon thing. So 
in the parks they'll come up through the parks the same method. 
They're very sophisticated. And, I don't think they come up 
with truckloads of fertilizer. I think they bring up very 
limited amounts at a time.
    The garden we took down at the Indian reservation last week 
had a total of--our investigation revealed there's probably 20 
workers in that garden, which is a lot of people to be going in 
and out of an area at one time. And, you wonder why no one 
spotted that, no one ID'd these guys, you know. It just didn't 
happen because we don't have that many people out on the street 
at night looking for this type of activity. It's just a matter 
of resources. These folks were going right by the Indian 
casino, and nobody noticed them because they were driving a 
Ford Tempest car, like everybody else drives. They didn't stand 
out. So I think that's what happens in the park system, these 
folks just don't stand out, and so that's one of the problems 
we have.
    But I think we can beat this problem with some additional 
resources and a real organized effort to do so.
    Mr. Souder. That would be helpful if they all wore the same 
shirt or something and functioned like a gang.
    Mr. Wittman. That said ``Criminal'' on the back of it.
    Mr. Souder. Mr. Fontaine.
    Mr. Fontaine. Congressmen, thank you for the opportunity to 
testify today.
    My name is Joe Fontaine. I live in Tehachapi, which is the 
next county south but it's still in the Sierra Nevada. I've 
been working with the land management agencies for over 40 
years on different kinds of issues. This is a particularly 
serious issue, I think, this time.
    Today I'm representing Wilderness Watch, which is a 
nationwide organization that is organized to try to make sure 
the Wilderness Act is implemented the way it's written. Just 
this past weekend I was elected president, so I think I'm the 
proper spokesman for that organization.
    I personally share all of the concerns that the sheriff and 
other people have expressed today, but because I'm representing 
an environmental organization, I would like to confine my 
comments to environmental impacts. So much has already been 
said that I'll try not to be repetitious, but you took the wind 
out of my sails with so many comments in the beginning.
    I think that I'd like to point out too that not all drug 
cultivation, I hate to call them gardens or farmers, but that 
doesn't just occur in this designated wilderness, it occurs in 
all of our public lands and our private land as well. So that 
the issues that I'm talking about, specifically I'm talking 
about designated wilderness, but it applies to all of these 
areas.
    I think probably one of the more serious problems is the 
diversion of water. California is a very arid area, and water 
is the key to maintaining our ecosystems in a healthy 
condition, particularly wildlife. If we divert water out of 
streams or dry up streams to use it for the cultivation of 
marijuana, it's going to have a very serious impact on the 
wildlife, particularly those whose populations are in danger 
and are in danger of disappearing. So that water diversion is 
going to be one of the most important impacts, I think, that's 
happening on our public lands.
    Those riparian areas where the wildlife live and some of 
the critical plants that are found in those areas where it's 
wetter are severely impacted. If you divert water out of the 
stream and dry up a mile or two of it, you can imagine the fish 
and amphibians and other water-dependent species of plants and 
animals are going to die and disappear.
    It's the impacts on the actual site where they grow the 
marijuana can be severe too, as you can see in these 
photographs here. They have to destroy the native vegetation, 
strip the soil back, that creates erosion. Non-native plants 
can come in. And then, of course, the litter they bring in, as 
you can see in these pictures, is a serious problem on how to 
get rid of that. If the sites are not rehabilitated, then the 
impacts of fertilizer left around, pesticides, things like 
that, are going to linger and get more serious as time goes on. 
So something has to be done to rehabilitate those sites, and 
that costs a lot of money. It's not easy to do.
    And then, of course, pollution. They're near streams so 
they can get the water in, if they bring in fertilizers and 
pesticides, poisons to kill the animals and critters that want 
to sample the marijuana, that all is going to create pollution. 
Not to mention the human waste. I can't imagine if there are 20 
people cultivating one of these so-called gardens how much 
human waste there's going to be there too.
    A lot of these people, we know, are poachers, and I'm sure 
they don't care about any of our wildlife regulations of what 
they shoot or how many or whatever. And so, the impact on 
wildlife just in the poaching is a problem too.
    And then, someone mentioned--I think it was one of you who 
mentioned the problem with fire. We've had some serious fires 
in California, as mentioned before in the last year or two. 
And, these people back here going about these operations they 
have can create a really serious fire problem in those remote, 
rugged areas. Once the fire gets started, it's really going to 
be hard to put out.
    The other important issue I'd like to mention is just the 
human safety. I think it's really a sad comment that the 
public, the owners of our public lands, has to be warned to be 
careful about going out into remote areas, don't go by 
yourself. We see reports in the newspaper of the violence and 
the shooting that has been--people have mentioned here before I 
started. And, it's really pretty sad that the public has to 
worry about things like that when they want to go out and enjoy 
the public lands that they own for personal recreation and 
enjoyment.
    I was really glad to hear one or two of you mention the 
problem down here at the border at Organ Pipe Cactus National 
Park. And, next door is the Cabeza-Prieta Wilderness, which 
also has a very serious problem. The drug runners have been 
breaking through the fence down there. They drive their 
vehicles as far as they can, and then they either breakdown or 
run out of gas; they usually set them on fire, and then carry 
the drugs they're bringing across the border by hand, I guess, 
or however they can get them out. And, although Wilderness 
Watch does not run organized outings, some of our members have 
reported to us that they don't feel safe down there. Like you 
mentioned, some of the trails are closed, and it's a disgusting 
experience.
    And so I'll sum up, since the red light is on here, but one 
of you asked what's next. Well, I think you should keep in mind 
that if we are able to control the problem on public land, a 
lot of this is going on in private land too. Just a few miles 
from where I live, in fact, they broke up one of these rings 
recently. So I'm really glad to hear that you're taking this 
problem seriously, and I hope that when you go back to 
Washington, you can convince your colleagues to provide the 
resources necessary to get on top of this problem and eliminate 
it.
    Thank you. I'd be glad to answer questions if you have any.
    [The prepared statement of Mr. Fontaine follows:]

    [GRAPHIC] [TIFF OMITTED] T3426.051
    
    [GRAPHIC] [TIFF OMITTED] T3426.052
    
    [GRAPHIC] [TIFF OMITTED] T3426.053
    
    Mr. Souder. Thank you.
    Mr. Nunes.
    Mr. Nunes. Thank you, Mr. Chairman.
    I'd first like to ask Mr. Jimenez: What areas of California 
have the largest amount of marijuana production, do you have 
any idea?
    Mr. Jimenez. Well, based on the statistics that we have 
here from CAMP, most of it is in the mountain areas, and 76 
percent this year we were on public lands, as opposed to last 
year we were about 57 percent. The remainder of that was 
private lands.
    But, again, these are just CAMP statistics, so it could be 
quite larger in terms of what other counties are doing. It just 
depends on the geographical location of CAMP.
    Mr. Nunes. And, in the mountainous regions, are you 
referring to the Sequoia Park----
    Mr. Jimenez. The national parks and the Forest Service 
property, as well as up in the northern areas and in some of 
the Bureau of Land Management.
    Mr. Nunes. In the northern part of the State?
    Mr. Jimenez. Correct.
    Mr. Nunes. But for the most part, it's here in the east 
side of the San Joaquin Valley?
    Mr. Jimenez. There's a good portion of it, yes. I think a 
good majority of it is up in here. We have the largest plant 
counts this year as far as CAMP goes in this area.
    Mr. Nunes. OK. How about methamphetamine production?
    Mr. Jimenez. Methamphetamine, also the counties in the 
Central Valley, as the sheriff was saying, these are the 
locations for the super labs that we have.
    Mr. Nunes. And, your coordination with law enforcement 
folks, can you give the panel--or can you give the other 
members here kind of a quick rundown on how this communication 
takes place.
    Mr. Jimenez. From the BNE perspective it's very good. We 
work very closely with the agencies, with our Central Valley 
HIDTA. We get together and there are monthly meetings, 
intelligence meetings, where things are discussed. Working 
closely with the Tulare County Sheriff's Department also, the 
different task forces that are set up.
    Mr. Nunes. Thank you, Mr. Jimenez.
    Sheriff Wittman, I want to again thank you for your 
availability to come up here this morning.
    Could you kind of give us just some brief background on 
some of the folks who were involved in this drug production, 
some of the drug cartels and some of your experiences that may 
be valuable to the other members and myself.
    Mr. Wittman. Yeah. I'd like to state that one of the 
problems we had, before I go into that is, with the limited 
resources we have, at any one time we've got several marijuana 
gardens that we can't get to. And our investigation is limited 
by our resources. Basically what we do is most of the time we 
spot a garden, go out and take it out. We don't have the 
resources to go out and stake it out and do the proper 
investigation and wait for the growers to come back and do 
those kind of investigations that we should.
    The people that we've come across are what we consider to 
be undocumented workers. They come into Tulare County. They 
appear to blend in with the other workers that are in the 
community that are undocumented or documented, doesn't make any 
difference. But they blend in with the population. If they have 
a pickup, like I said earlier, with fertilizer and equipment 
that could set up a lab or--you know, they would go unnoticed 
in our county unless they just stood out and committed some 
kind of a crime.
    We believe that they're so sophisticated that it has--the 
direction that--the people that we've arrested are just 
laborers. They're just guys that are probably making $8 to $10 
an hour, if that, or with the promise of getting a reward at 
the end of however much marijuana they harvest. We don't 
believe that we're getting anywhere near the cartels or the 
people that are the profiteers that are making the money. The 
ones that we get are the ones that are sent here to do the 
labor, to plant the gardens, to cultivate it, and that's as far 
as we're getting at our level. And, I don't think it's doing 
any better at anybody else's level that I've seen.
    Now, on the other hand, with the HIDTA now that we're 
organized and more sophisticated than we were before with the 
additional resources, we're making a major impact on the 
cartels, especially if they're housed locally. And, we're 
taking down some big people that we knew were dealing drugs for 
years but we just couldn't get to. They were sophisticated. But 
with all of our resources, national, State, DEA, BNE, local law 
enforcement, we're able to tap the phone lines to follow them 
to do the proper things and gather the information to arrest 
these people.
    And, as I said earlier, I believe we can do the same thing 
with the marijuana cartels, if we put the sophistication and 
resources and we know what the problem is. And, we have the 
working relationship with the other agencies to solve the 
problem. But we're all working with limited resources, you 
know. I mean, that's the bottom line. I know you hear this 
everywhere you go. But since we've got this extra money for 
HIDTA, we've made a major impact. Forty super labs or 40 labs 
in Tulare County is a lot of meth.
    Mr. Nunes. Just this year?
    Mr. Wittman. So far this year. And, many of these are super 
labs. They've been set up and be gone and cooked.
    As I said earlier, Congressmen, I'm concerned about the 
devastation to the children in my community. All of these 
children that are in these homes where we take down these meth 
labs prove positive for drug use. We test them. We take them 
out of their homes. And, they live in the most despicable 
places. The whole area is contaminated. The children's system, 
they're poisoned.
    Mr. Nunes. Because they breathe the fumes?
    Mr. Wittman. Well, that and when they drop the--they spill 
the chemicals on the floor, and the babies crawl around in it. 
I've been in homes where the chemicals are all stored 
underneath the children's beds. You know, it's right underneath 
where they sleep. And so, you know, it's a major impact in our 
communities. It's devastating. Meth is such an addicting drug. 
And, we see the devastation more on the level with meth than we 
do with marijuana.
    Mr. Nunes. Thank you, Sheriff.
    Thank you, Mr. Chairman.
    Mr. Souder. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Boy, I've got a lot of questions for this panel.
    Sheriff Wittman, I appreciate your at least implicit 
connection between marijuana and the methamphetamine 
production. I'm the author and they're both co-sponsors of the 
bill called Clean Up Meth, which would authorize significant 
new support for local communities in combating this poison, not 
only on the law enforcement side and the education side but 
also on the remediation and environmental impact side, in terms 
of when these people are done producing their pound or 10 
pounds of meth and they dump the toxic waste out the local 
communities have to clean that up. And, this bill, which now 
has over 100 co-sponsors in this Congress, will assist in that 
respect. So I am very grateful for you and your work on this 
issue.
    If I may, I'd like to turn to Mr. Fontaine, because this is 
kind of an emerging issue in many of the environmental groups, 
and I want to specifically compliment your intention and 
participation today. When we set out on this with our 
background on the Clean Up Meth Act, we knew that there were 
environmental consequences to these drug production sites. And, 
we had great difficulty finding a witness who would come and 
testify, so we're appreciative.
    Mr. Chairman, it may well be because of the emerging nature 
of this issue, but in addition to the Wilderness Watch, we 
contacted the Wilderness Society, the National Parks 
Conservation Association, the Sierra Club, the National 
Resource Defense Council, the National Environmental Trust, the 
National Lands Alliance, the California State Parks Foundation, 
the Defenders of Wildlife, the Friends of the Earth, Green 
Peace, Environment of California, the Plan and Conservation 
League, the National Forest Protection Alliance, and CALPIRG, 
and the only organization that's up on this issue at this time 
is Wilderness Watch.
    So you have my compliments----
    Mr. Fontaine. Thank you.
    Mr. Ose [continuing]. And, we're grateful for your 
participation today. I'm hopeful that your colleagues in 
Wilderness Watch and elsewhere in the community, particularly 
in these other groups, will latch on to your coattails and get 
up to speed on this as quickly as possible because we could 
sure use their help.
    And, Mr. Fontaine, obviously there's something different 
about this issue that caught your interest. Now, historically 
we've looked at this as primarily a law enforcement issue. I'm 
sitting here thinking under the Clean Water Act, redirecting 
water flows, for instance, the impact on habitat along those 
streambeds, the mammals and the flora and fauna that come to 
rely on that water stream. From where you sit, do you see this 
as a violation of Clean Water Act?
    Mr. Fontaine. Among many laws I think it violates, yes. I'm 
not an expert in the Clean Water Act, but I would certainly 
think that this would be a violation of that act.
    Mr. Ose. Mr. Chairman, the reason I bring that up is that 
we talk about resources to mitigate the damage, and we've heard 
all of our witnesses on the first panel offer that testimony. 
Everyone here offered the same testimony. If you break the 
struggle or the challenge of combating this problem into 
pieces--you have the law enforcement piece, then you have the 
actual apprehension piece, then you have the environmental 
cleanup piece--if you break the problem up into pieces, I think 
under the Clean Water Act we could make a pretty good argument 
to our colleagues that resources should be provided from EPA 
toward mitigating any cleanup of the sites, for instance.
    In California the old saying is water runs uphill toward 
money. Well, water runs downhill. That's just basic physics. 
And, that water that goes through those sites and is used to 
either support the individuals who are subsisted there or feed 
the plants, that water eventually is going to run down into the 
water supply of Devin's district, my district, or Bill Thomas' 
district, or what have you. So I wonder whether in breaking the 
problem up into pieces we might be able to find some resources. 
And, I would propose we explore that when we get back to 
Washington.
    The other part of this is that, Sheriff Wittman, you 
mentioned the $17,000 contract that you have with the Forest 
Service, and you talked about the garden you took down on 
Indian lands. What is the relationship that you're finding 
separate and apart from parks in working with the Indian 
tribes?
    Mr. Wittman. Our relationship with the Indian tribes is 
great. They were very helpful. They were very saddened by the 
fact that this was going on on their property. They were right 
there to help us from the very beginning, and any resources 
they had were available to us. This reservation is probably--I 
don't have a map here--but not more than 30 or 40 miles from 
the park. So it's just outside the mountains. It's not that far 
basically. No, they were very cooperative.
    Mr. Ose. Thank you.
    Thank you, Mr. Chairman.
    Mr. Souder. When you said that Tulare County was the 
seventh largest, was that geographical or----
    Mr. Wittman. Geographical.
    Mr. Souder. Sorry, I'm not from here. I wanted to make sure 
if I used that figure at any point that I had that straight in 
my head.
    Mr. Jimenez, in the CAMP efforts, have fellow agencies been 
involved with you, and which ones have been most helpful?
    Mr. Jimenez. Yes, we have been involved with several 
Federal agencies, everyone that's been here today, DEA, U.S. 
Forest Service, Bureau of Land Management, and National Parks.
    Mr. Souder. Any agency that you've approached where they 
haven't been willing to help?
    Mr. Jimenez. No, sir.
    Mr. Souder. Sheriff Wittman, are you involved with CAMP?
    Mr. Wittman. Yes.
    Mr. Souder. What type of involvement?
    Mr. Wittman. I'd like to say that we're very proud of the 
relationship we have with the other agencies. We've got a great 
working relationship with DEA, BNE, all of the Park Service, 
the National Park Service. We have a great relationship, I want 
to make that very clear. We all work hand and hand. We know 
what the problem is, we work hand and hand. CAMP's been great 
to work with; all of the agencies have. I have found no one 
that didn't want to help.
    Mr. Souder. Have any of you been involved in the ONDCP 
marijuana initiative?
    Mr. Jimenez. No, we haven't.
    Mr. Souder. That was the first referred to earlier. Have 
any of you been involved in the DEA marijuana initiative?
    Mr. Jimenez. Yes, we have.
    Mr. Souder. And what was your involvement?
    Mr. Jimenez. Well, just basically just the funding portion 
of it. We sat down and did some strategy.
    Mr. Souder. Sheriff Wittman, presumably you're involved in 
HIDTA?
    Mr. Wittman. Yes.
    Mr. Souder. Is your organization also involved with HIDTA?
    Mr. Jimenez. Yes. In fact, as I mentioned earlier toward 
the end, the Central Valley HIDTA was very helpful with some 
funding that helped extend our season which, as I said----
    Mr. Souder. Was that through that marijuana initiative, 
that funding?
    Mr. Jimenez. Yeah, I don't know that for sure.
    Mr. Souder. Do you sense that there is more going on in the 
northern remote part of California than is currently tracked 
there because of its remoteness?
    Mr. Jimenez. If you looked at the numbers, I would say 
historically that's been the case, but it seems to be moving 
south. As early as 1985 when we started detecting these 
cartels, but in the last 5 years it's really just ballooned. 
Our record gardens have been here in the Central Valley area 
where the traditional areas like Humboldt County, Mendocino, 
the numbers--Mendocino stayed pretty consistent, but Humboldt 
has dropped. We attribute that to a lot of indoor groves now. 
They're going indoors with it. But this is definitely the area 
that's ballooning up here.
    Mr. Souder. Would you agree that the marijuana in this area 
is 10 percent going upwards toward 18 in THC?
    Mr. Jimenez. Well, what I can agree with is that it is 
definitely a higher grade marijuana, I do know that. To what 
level I'm not--couldn't tell you.
    Mr. Souder. But not as high as hydroponic groves that 
you're seeing up north?
    Mr. Jimenez. The hydroponic groves that CAMP has been 
involved with have been very limited, so I really couldn't give 
you a number on those.
    Mr. Souder. Do you have the ability to test that?
    Mr. Jimenez. We are working with the University of Kentucky 
on some things, and there is--the ability is that we do have 
that ability, I guess, if we could, we could do that, 
absolutely.
    Mr. Souder. Because it's really important our record 
clearly shows it, but for those here that have not heard this 
debate, that marijuana we're talking about is not the 
traditional marijuana.
    Mr. Jimenez. That is correct.
    Mr. Souder. And the whole philosophy of medicinal marijuana 
is already being tested in many of the States where they passed 
this, because the people using it get used to the street 
marijuana and then find that even the legal marijuana doesn't 
have the potency, and they're now complaining about revising 
those laws. And, we're seeing expanded groves in the States 
where they passed medicinal marijuana, because it's almost like 
an expanded market for the potent stuff. And, the real danger 
is this stuff expands in higher THC. This problem may be 
getting tougher and end up moving toward indoor groves or these 
meth labs underneath counties. If that marijuana looks hard to 
see, wait until they--if you can like the super labs that are 
in some places, if they can get undercover where they don't 
need the sunlight as much, you're in even more trouble trying 
to spot them in advance.
    I want to make sure even though this hearing is focused on 
marijuana, meth, I believe, constitutes about, if I recall, 8 
percent of the drug use in the United States, whereas marijuana 
constitutes closer to 60. So the scope of the problem, 
particularly as we see in the marijuana increase in potency, is 
greater in the marijuana area, but the meth is particularly 
devastating and more quickly addictive, and the Central Valley 
is the heart of that.
    I want to make sure we get into the record the Central 
Valley HIDTA reports.
    [Note.--The document entitled, ``Central Valley HIDTA'' may 
be found in subcommittee files.]
    Mr. Souder. And, I wanted to ask an additional question 
related to meth, even though this hearing is focused on public 
lands and on the marijuana. And, that is Sheriff, if you 
could--we've heard in some private discussions, and Congressman 
Nunes currently is very focused on the impact on the 
agricultural community where many of this occurs--my 
understanding is that some of these labs will go into a 
cornfield, much like you mentioned the marijuana, we have 
similar problems in Indiana, the marijuana gets mixed in the 
cornfields, but the meth labs--and then they disappear, and the 
farmers are held accountable for the cleanup. It isn't even 
necessarily the county. Could you explain more----
    Mr. Wittman. That's correct. What happens is they could 
move into an orange grove or a walnut grove and set up a lab 
and be gone within a very short period of time leaving waste 
behind, and the farmer's held accountable to clean up the waste 
that's left over. We come up and clean up the best we can. But 
oftentimes what they do is they will go out and they will rent 
a small house on a farm, and they set up the cook inside the 
house. And, by the time they get done, the whole area, up to 
20, 30 acres, could be contaminated, the buildings, everything 
goes.
    And like I said, the children that are involved in this--
what concerns me about the waste is that oftentimes they dump 
it in our creek beds, our rivers. It does get into our water 
supply. And, I am just surprised that we haven't had a major 
problem already--if we have, then we're not aware of it where 
they have thrown the waste products, which are highly 
contaminated, and which are very dangerous. The drugs that it 
takes to manufacture meth are very, very abrasive, very 
poisonous. It's not uncommon. We've had situations where dogs 
will come up and nose around inside the trash, and they're 10 
feet away laying there dead. I mean, most of the guys that work 
meth can tell you that. My concern is what happens to a child 
on a bicycle going down the road that sees this debris here 
before we can get it, and something can happen to them. It's 
very toxic.
    Mr. Souder. I want to ask one more type of question. There 
are a number of shows on T.V. that have expanded the popularity 
and focus on law enforcement around the United States and on 
investigation. CSI may have done more to help or hurt law 
enforcement than anything, because we all assume now that you 
each have all kinds of materials that if you can just get a 
piece of lipstick and maybe a partial fingerprint, maybe even a 
breath of air left in the area, you can find a suspect.
    Now, that said, is there any ability from the remnants in 
the trailers left at these meth sites to be able to get 
fingerprints off them?
    Mr. Wittman. Oftentimes there is. And, sometimes we're able 
to take the physical evidence that we have at the scene and 
locate a suspect. We found a suspect that had a garden recently 
that had left the area. We were able to trace him down, a 
couple of them, by evidence left at the crime scene. So that 
does happen.
    Mr. Souder. It doesn't do any good if you don't have the 
fingerprints----
    Mr. Wittman. Yes, but the problem is we don't know who they 
are, if they're on their way back to Mexico, or even if we get 
them identified we're out of luck. But if they decide to stay 
around the area, which they do sometimes, we're able to 
apprehend them.
    The same thing with the meth. Oftentimes we're notified 
that they'll explode. The meth will actually blow up a house. 
And, they try to crystallize it by putting it in the 
refrigerator and turn the refrigerator on or open the door, 
light comes on, it's a gas, it blows things up.
    Mr. Souder. Now, I'm raising two sore subjects, because 
some of us outside of California have heard that there was 
recently some kind of an election here, I believe, and one of 
those issues had to do with driver's licenses. Is there a 
fingerprinting method currently that has the ability to match 
up? Clearly we're looking at this in the Department of Homeland 
Security. One of the big voids is in State licensing systems. 
Because if we're going to be able to track terrorists, we have 
to have a way to identify terrorists. If we're going to track 
narcotics networks, you have to have the ability to track 
narcotics networks. This is begging the question that if we had 
work permits and better standards so that most of the migrants 
who are coming across who have legal activities that we base--
our economy would collapse if we totally shut down our border.
    But as we work to manage those borders, as we work to 
document who's legal here or not, how are we going to be able 
to trace, if in fact the testimony that we heard today is most 
of these people are, ``undocumented aliens who then feed in to 
cartels that are moving back and forth across the border?'' We 
can't figure out who they are even if we have their 
fingerprints because we have no system with which to identify 
them. How are we going to figure out how the money is moving, 
how these may or may not be connected to different terrorist 
organizations and all sorts of things?
    Do you have any suggestions to us, from a law enforcement 
standpoint, that would make it easier for you to be able to 
take this up so we're not just doing the whack and stack, and 
try to figure out--not just arrest a person on the street who's 
using marijuana, but to get to the guys who are behind this who 
are funding it, who are managing the operation? We can't do 
that unless we can identify the entry-level people. Do you have 
any suggestions to us how to do that?
    Mr. Wittman. The only way--the only fingerprints that we 
have on file in our system is that when we arrested someone and 
they've been through the system at the present time. And, I'm 
not sure how to--you know, there's talk about the 
identification card, and there's pros and cons on that, a 
driver's license and wait and see. I think it would be helpful 
if we did have a thumbprint or fingerprint somewhere where we 
could process it and see if it matches with what we have. I 
certainly believe that would be helpful. How do we go about 
doing that, I'm not sure.
    Mr. Jimenez. Mr. Chairman, there is actually the 
Immigration Service fingerprints their detainees or their 
arrestees when they come into the country. If there was some 
way that we could link into their base, it might actually help 
us. California has a latent print system that they can go 
through and identify people, and that may actually be a way we 
can do it.
    I know that one of the cases----
    Mr. Souder. So let me clarify, because we've held a number 
of hearings on the California borders elsewhere.
    Many of these people come across multiple times. They get 
picked up. As long as they don't have a previous criminal 
record which doesn't include trying to illegally immigrate into 
the United States, they get sent back.
    But you're saying in that holding tank that night when 
they're checking their criminal record, they have a 
fingerprint.
    Mr. Jimenez. I don't know if they're checking criminal 
records, but they do--they identify them through a fingerprint. 
They put their fingerprint on a machine.
    Mr. Souder. So we need to ask what happens to those 
fingerprints.
    Mr. Jimenez. Right. Their photo comes up if that person has 
been detained.
    I know for a fact we did something in a case where we had a 
subject that had crossed 17 times into the United States and 
was wanted for homicide in Mexico. And, eventually we were able 
to get him. But if we had some system there, we could have 
gotten him back a lot sooner. And, they would have known--the 
authorities would have been ready to take him into custody.
    Mr. Ose. But you have no connection or interactivity with 
that system at the State level?
    Mr. Jimenez. Currently we don't have that, no.
    Mr. Ose. OK.
    Mr. Souder. So the ident system you're not able to tap into 
it?
    Mr. Jimenez. We don't--no, not currently. We have to 
manually request something from--and they're very good about 
doing it. We've done it on a limited basis and have been very 
successful.
    Mr. Souder. Have you ever tried to tap into ident?
    Mr. Wittman. Our agency has, but I'm not personally aware 
of it.
    Mr. Souder. Anything at the State?
    Ms. Mulz. No. We just submit fingerprints through regular 
channels of the State and CIC.
    Mr. Souder. Do you have additional questions?
    Mr. Nunes. Maybe just one followup question for Mr. 
Jimenez.
    There's a lot of talk about these Mexican nationals or 
illegal aliens and controlling these marijuana gardens. Is this 
being overexaggerated or is it the largest percentage of the 
folks out there, are they really illegal aliens?
    Mr. Jimenez. A good majority of them are, yes. They are 
drug trafficking organizations. I could give you a rough 
general percentage that--right around 70 percent of the gardens 
that we're dealing with are Mexican national gardens.
    Mr. Nunes. Thank you.
    Thank you, Mr. Chairman.
    Mr. Souder. What's interesting too, Canadian court, Ottawa, 
has had to kind of--I don't believe their supreme court yet 
ruled on Wednesday, was in the Thursday media stories, that 
because they allowed medicinal marijuana in B.C., they don't 
have the right to eradicate. Really important to watch how the 
legal process of this stuff is going to go because you can't 
clearly identify when you're going in what the purpose is going 
to be used for; therefore, their courts have ruled that it's 
more difficult to go after the eradications, so the very 
problem happens.
    Mr. Ose. So if they've got 12,000 plants, I guess that's 
for personal and medical use.
    Mr. Souder. They said they couldn't establish they weren't 
supplying the government doctors. It would be different types 
of regulatory things we're going to have to face up with, but 
we're working hard with the Canadians in the United States and 
States where this is happening to try to get some kind of THC 
measurement. We're going to need quicker things so that when 
you arrest somebody you can see what level this is, because 
even the Canadians are having a huge debate right now whether 
they've gone too far. And, in the United States we need to 
evaluate this because this isn't about somebody who has cancer 
and is dying trying to alleviate pain, you can get other 
medication to do that. But it's really changed the marijuana 
debate. It's one of our huge challenges. And, we see this 
explosion and devasation partly because we've lost some of the 
definitional battle right here in the United States. And, the 
courts think this is going to be a nightmare.
    Mr. Ose. Did you say the Ninth Circuit said that?
    Mr. Souder. There's a warning sign for those who live in 
the 9th circuit.
    Mr. Ose. Mr. Chairman, I have a question for Ms. Mulz, if I 
may.
    A lot of times what we do is like squeezing a water balloon 
in a sense. If we squeeze on Federal lands, this production may 
very well just migrate to the State lands, which is one of the 
things I'm kind of concerned about. From your perspective, what 
are you doing at the State level to ascertain whether this 
migration might already be happening? Do you have relationships 
with Bureau of Land Management? Educate us a little bit about 
this.
    Ms. Mulz. I'm afraid that it's already there and that we 
just have not been very diligent in tracking it because of the 
competing needs of being a nontraditional law enforcement 
agency and having all of the other jobs that come with being a 
park ranger.
    When this started to come to light and we started checking 
statistics and we were going to hit or miss in being able to 
determine the extent of the problem, I spoke to Val a couple of 
times and in speaking with my management have decided that we 
would make ourselves more available and have a more concerted 
effort to work with CAMP, to work with the Sheriff's 
Departments.
    One of the problems we have is where the jurisdictional 
issues when the local Sheriff's Departments goes in, they're 
not sure if it's our property, it's the Forest Service 
property. And, if they call and they don't get anyone at our 
office, they just go in and eradicate it. And so, we may find 
out--I actually found out where some of the groves were by 
reading the paper and then contacting the Sheriff's Department.
    And we've been negligent in that area, and we hope to 
increase that. We're going to have a single point of contact 
with CAMP and start attending meetings with CAMP and work that 
out, so that when they get information that there's possibly 
groves on our property, that we will be more of assistance to 
them instead of finding out about it after the fact.
    Mr. Ose. Superintendent, I should ask this question: When 
you've gone into the camps where production has taken place and 
you see all of the stuff, have you ever found these topographic 
maps that are readily available?
    Mr. Martin. Could I defer that question to our special 
agent?
    Mr. Souder. Certainly.
    Mr. Martin. He might not be sworn.
    Mr. Souder. Yeah, I need to swear him.
    If you'll state your name for the record.
    Mr. Delacruz. My name is Al Delacruz.
    Mr. Souder. Can you spell the last name?
    Mr. Delacruz. D-E-L-A-C-R-U-Z.
    Mr. Souder. Raise your right hand.
    [Witness sworn.]
    Mr. Delacruz. I do.
    Mr. Souder. Let the record show he responded affirmatively.
    Mr. Delacruz. No, we have not found any topographic maps or 
any maps of any kind on any of the gardens we've found.
    Mr. Ose. So, in effect, the absence of maps, does that 
indicate that the location of the camps is happenstance? I 
mean, they just go along and, well, this is remote enough, 
there's water there, we're fine.
    Mr. Delacruz. Exactly, yes.
    Mr. Ose. All right.
    Mr. Souder. I thought Mr. Jimenez made a fascinating point 
that--it's another thing to look at, and that was that the 
groups look for geographical characteristics similar to where 
they came from, which means the group could be studied where a 
lot of this is coming from in Mexico. We can kind of figure out 
where they're going to go looking for it, because one of the 
things they look for is it just looks like where I was 
successful before or send scouts to look for whatever was 
successful before.
    It's not dissimilar, by the way, to any other business. 
Agriculture people look for--when they come over, they look for 
communities that are similar. Vietnamese when they come in will 
look for Vietnamese areas in Los Angeles that are similar. It's 
true with the Germans. It's true with the Irish. It's true with 
the Italians. It's true with every single group are going to 
look for different types of work patterns that they've seen and 
are similar and comfortable in the new land that they come to. 
So it would make sense. It's just that I haven't heard anybody 
say precisely that before, because that's another way to kind 
of do it.
    Again, I want to clarify something else I said. Just 
because a State has changed the laws, which is different than 
Canada, by the way, we have a preemption of Federal law, of 
State law. Supreme Court's already ruled that. It's problematic 
because it makes more cases potentially have to go to Federal 
level in California rather than State level, and the courts you 
hit you may want to have Federal. We fought a civil war on this 
issue. States don't have the right to nullify a Federal law. 
And, that people don't like the culpability of comparison, but 
that's what it was fought over, nullification of Federal law.
    And so we have a little bit different situation in Canada; 
nevertheless, it's still a worrisome part because the question 
is will the Federal Government--as we've tried to enforce 
certain laws in California, it's been problematic and--in that 
the grove that the DEA discovered in northern San Francisco in 
this big housing development where whole houses were hydroponic 
groves, that is involved for medicinal marijuana purposes, 
which makes the court case more problematic as to how to pursue 
that kind of stuff. And it's a huge challenge.
    Any other questions or comments?
    Mr. Nunes. No, Mr. Chairman.
    Mr. Ose. I have a closing statement.
    Mr. Souder. Mr. Jimenez, based off of what I just said, do 
you believe that the medicinal marijuana State legislation 
would have an impact on enforceability here?
    Mr. Jimenez. No, because really we defer to the local 
counties, so it's really a county issue.
    Mr. Souder. Well, let me ask another question: Do you 
believe that there have been the breaking up of the plots in 
the 25 plant limits in order to find that loophole?
    Mr. Jimenez. To be quite honest with you, as far as in that 
side of it, I really don't deal with it enough to really deal 
with the enforcement aspect. My thing is strictly commercial 
groves. And then, our position is when we go into someplace 
like that, if we--we're with this local sheriff and we defer to 
them on how it's going to be enforced, and then we stick with 
them on that.
    Mr. Souder. Sheriff Wittman, have you seen attempts to try 
to get under that 25?
    Mr. Wittman. We've seen some of it but not a whole lot of 
it. We arrest them. We prosecute them.
    Mr. Souder. So part of the--basically part of the problem 
here is that the problem is so great in getting, in effect, a 
small percent. We're really at the margin. It's more 
affecting--it may affect how the courts respond and it may 
affect consumer attitudes, because every single place, every 
single witness and every single agency today--and tell me if 
anybody here disagrees with this--there's been a dramatic rise 
in California, and that rise is coincidental. And, by the way, 
the rest of the country doesn't have that amount of rise.
    And so some of this, the wilderness-type thing, the 
proximity to Mexico having networks, but they're--be 
interesting to watch and see whether this happens in other 
States whether consumer attitudes change and what that does and 
whether the THC continues to rise faster in those areas too. 
It's going to be an interesting thing to watch.
    Mr. Ose, anything else?
    Mr. Ose. I want to especially thank Congressman Nunes for 
having us come to his district and have this hearing. I wish we 
could do this more frequently, Mr. Chairman, get the testimony 
we've had from our witnesses today.
    It's clear to me that the coincident factors that you've 
identified moments ago are influencing our success here. And, I 
frankly don't have a wand that I can wave to cure. I do want to 
tell you that those of you who are engaged in trying to combat 
this stuff, your efforts are appreciated. I'll tell you, this 
goes all of the way to the Speaker of the House of 
Representatives. The Speaker of the House of Representatives--
it's a little known fact--current Speaker of the House of 
Representatives sat in this chair right here before he was 
speaker of the House of Representatives. That's where he was. 
That's how high up this issue goes in our Federal Government. 
So, my compliments to your efforts. We appreciate it.
    And, if you have anything you'd like to offer us privately, 
there are people all around this room who work for one of us 
who'd be happy to take your input and give it to us directly. 
I'm grateful for your help.
    Mr. Souder. And, thanks to Chairman Ose for helping 
organize this and his subcommittee working with this as well as 
the staff on my subcommittee; Congressman Nunes for his work in 
Washington and having us here.
    I think the Sheriff hit it on the head. A lot of times the 
implication is this isn't just a job, this is more than just a 
job in the narcotics area, it's a crusade.
    On the Homeland Security Committee I'm very concerned about 
terrorism and how to manage it; 2,000 people died there. And, 
20,000 to 30,000--depending on overdoses that are directly 
related to drugs, or at least 20,000 deaths a year; 30,000 if 
you count the indirect consequences at least in the United 
States. That is a devastating number. And, those are in our 
families; anywhere from 65 to 85, 90 percent of all crime is 
drug and alcohol abuse facilitated, financial related. And, 
I've had judges tell me that's also true of even child support 
payments, divorce. It isn't just the criminal side, it's the 
civil side of law enforcement is heavily related to these kind 
of abuses and facilitate child abuse, spouse abuse, and all 
that.
    You're fighting a good fight. We thank you very much for 
that. And, we'll do what we can to help you in Congress.
    With that, the multiple subcommittee hearing stands 
adjourned.
    [Whereupon, at 12:51 p.m., the subcommittees adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3426.054

[GRAPHIC] [TIFF OMITTED] T3426.055

[GRAPHIC] [TIFF OMITTED] T3426.056

[GRAPHIC] [TIFF OMITTED] T3426.057

[GRAPHIC] [TIFF OMITTED] T3426.058

[GRAPHIC] [TIFF OMITTED] T3426.059

[GRAPHIC] [TIFF OMITTED] T3426.060

[GRAPHIC] [TIFF OMITTED] T3426.061

[GRAPHIC] [TIFF OMITTED] T3426.062

[GRAPHIC] [TIFF OMITTED] T3426.063

[GRAPHIC] [TIFF OMITTED] T3426.064

[GRAPHIC] [TIFF OMITTED] T3426.065

[GRAPHIC] [TIFF OMITTED] T3426.066

[GRAPHIC] [TIFF OMITTED] T3426.067

[GRAPHIC] [TIFF OMITTED] T3426.068

[GRAPHIC] [TIFF OMITTED] T3426.037

[GRAPHIC] [TIFF OMITTED] T3426.038

[GRAPHIC] [TIFF OMITTED] T3426.039

[GRAPHIC] [TIFF OMITTED] T3426.040

[GRAPHIC] [TIFF OMITTED] T3426.069

[GRAPHIC] [TIFF OMITTED] T3426.070

[GRAPHIC] [TIFF OMITTED] T3426.071

[GRAPHIC] [TIFF OMITTED] T3426.072

[GRAPHIC] [TIFF OMITTED] T3426.032

[GRAPHIC] [TIFF OMITTED] T3426.033

[GRAPHIC] [TIFF OMITTED] T3426.034

[GRAPHIC] [TIFF OMITTED] T3426.035

[GRAPHIC] [TIFF OMITTED] T3426.036

                                 <all>

</pre></body></html>
